<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 108-431]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-431
 
                            BUSINESS MEETING

=======================================================================

                                HEARING

                               before the

               JOINT COMMITTEE ON THE LIBRARY OF CONGRESS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 3, 2004

                               __________

 Printed for the use of the Joint Committee on the Library of Congress




 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                               __________

93-050              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001



      MEMBERSHIP OF THE JOINT COMMITTEE ON THE LIBRARY OF CONGRESS

                 Senator TED STEVENS, Alaska, Chairman

        Representative VERNON J. EHLERS, Michigan, Vice Chairman

 SENATE                               HOUSE
                                       
THAD COCHRAN, Mississippi            ROBERT W. NEY, Ohio
TRENT LOTT, Mississippi              JACK KINGSTON, Georgia
CHRISTOPHER J. DODD, Connecticut     JOHN B. LARSON, Connecticut
CHARLES E. SCHUMER, New York         JUANITA MILLENDER-McDONALD, 
                                     California

 SENATE CONTACT                       HOUSE CONTACT
                                       
Jennifer Mies, Staff Director        Bill McBride, Deputy Staff 
  224-1034                           Director
                                       225-3831
  
                            C O N T E N T S

                              ----------                              
                                                                   Page
Opening Statement of Senator Ted Stevens, U.S. Senator From 
  Alaska.........................................................     1
Statement of Vernon Ehlers, U.S. Representative From Michigan....     1
Statement of Hon. James H. Billington, Ph.D., Librarian of 
  Congress, Library of Congress..................................     1
General Donald L. Scott, USA (Ret.), Deputy Librarian of 
  Congress, Library of Congress..................................     1
Prepared Statement of James H. Billington........................     4
Highlights of 2003...............................................     6
Acquisitions.....................................................     6
Police Merger....................................................     6
Film Preservation................................................     7
Statement of Senator Thad Cochran, U.S. Senator From Mississippi.     8
Statement of Robert W. Ney, U.S. Representative From Ohio........     9
Statement of John B. Larson, U.S. Representative From Connecticut    10
Statement of Daniel P. Mulhollan, Director, Congressional 
  Research Service, Library of Congress..........................    13
Prepared Statement of Daniel P. Mulhollan........................    14
Statement of Hon. Alan Hantman, Architect of the Capitol.........    22
Leone Reeder, Acting Chair, National Fund for the U.S. Botanic 
  Garden.........................................................    22
Stephen Ward, Executive Director, National Fund for the U.S. 
  Botanic Garden.................................................    22
Prepared Statement of Honorable Alan M. Hantman, FAIA............    23
  


                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, MARCH 3, 2004

                                       U.S. Senate,
                Joint Committee on the Library of Congress,
                                                    Washington, DC.
    The committee met at 4:07 p.m., in room S-128, the Capitol, 
Hon. Ted Stevens (chairman) presiding.
    Present: Senators Stevens and Cochran; and Representatives 
Ehlers (vice chairman), Ney, and Larson.
    Also present: Jennifer Mies (staff director).


   opening statement of senator ted stevens, u.s. senator from alaska


    Chairman Stevens. Well, I think we have representation on 
both sides; we can start the meeting, if you will. I do thank 
you for coming. One of our members had to depart because of a 
call from the chairman of appropriations on the other side, but 
we have not had a meeting for some time. We have a series of 
things to go over and I thought it would be best if we could 
cover several subjects at one time and that is why I have asked 
Dr. Billington and the Architect and the Director of the 
Congressional Research Service to be here, all here, today.
    But let me first ask you, Mr. Vice Chairman, if you have 
any comments to make before we start this process?


     statement of vernon ehlers, u.s. representative from michigan


    Mr. Ehlers. No, nothing about the past. I will have some 
about what is on the agenda.
    Chairman Stevens. Okay, that is very good.
    Mr. Ehlers. I am concerned about a few things.
    Chairman Stevens. I understand that.
    I particularly hope Senator Lott can get here. But let me 
first call upon you, Dr. Billington, as the Librarian to give 
us sort of a summary of whatever you would like to discuss with 
us here today. I do believe we will have a majority before we 
are through.
STATEMENT OF HON. JAMES H. BILLINGTON, Ph.D., LIBRARIAN 
            OF CONGRESS, LIBRARY OF CONGRESS
ACCOMPANIED BY GENERAL DONALD L. SCOTT, USA (Ret.), DEPUTY LIBRARIAN OF 
            CONGRESS, LIBRARY OF CONGRESS

    Dr. Billington. Thank you, Mr. Chairman.
    We recognize the austere budget restrictions that we face 
for this next fiscal year and we are seeking ways to continue 
performing our statutory obligations and our core mission for 
Congress and the Nation in this new information age.
    The Library, which the Congress created and has sustained 
for 204 years, has become more important than ever before. It 
is in many ways the Nation's strategic information reserve in a 
time when our security, economic competitiveness, and creative 
dynamism are increasingly dependent on information. This is the 
world's largest collection of retrievable human knowledge, in 
almost all languages and formats. It contains the mint record 
of American private sector creativity and it is a world leader 
in both our constantly gathering in and freely sending out high 
quality material on the Internet.
    We are well on our way to the electronic conversion of our 
internal processes and to providing digital archiving and 
services required by the Congress. These range from re-
engineering the Copyright Office to providing new user-friendly 
digital materials for the blind and physically handicapped, who 
currently get more than $23 million in free reading materials a 
year.
    We are in effect superimposing a new electronic library on 
top of continuing to add 10,000 new items every day to the 128 
million artifactual items in the Library of Congress. We are 
doing all this with 7.7 percent less full-time equivalent staff 
than we had in 1992 before the Internet age was set upon us. We 
are doing it with a magnificent but aging work force, 48.1 
percent of whom will be eligible for either regular or early 
retirement by September of this year.
    To continue performing our statutory obligations and core 
mission for Congress and the Nation, we will be making major 
changes and requesting some new funding, as determined by our 
rigorous planning process and guiding strategic plan, presided 
over by General Scott, my distinguished deputy.
    Now, more than ever we must increase the acquisition and 
preservation and storage of print material even as we begin 
implementing our Congressionally mandated plan for archiving 
the Internet. Print material is increasing by an estimated 15 
percent along with the exponential increase in digital 
material, and this increase is particularly strong in troubled 
regions of the developing world, where both the Nation's needs 
and the Library's resources are particularly great. Only in our 
massive collections could America find Osama bin Laden's rare 
autobiography, or rare German archaeological data which 
verified that the desert spaces in southern Iraq would hold 
heavy tanks and heavily laden all-purpose carriers, or could we 
find a complete set of Afghan legal codes that could be 
digitized in 24 hours and replicated in 200 copies to replace 
those destroyed by the Taliban, anxious to prevent the rule of 
law, traditional Afghan law, from being even available for the 
new post-Taliban Afghanistan.
    That is just one illustration, and I could give you many 
more: the way in which a major breakthrough on adult remission 
of leukemia was facilitated by a rare German volume of which we 
had the only copy in the world.
    Now, we must adequately preserve and store these immense 
collections because it is never clear where we are going to 
find clues in the future to some wisdom that was overlooked in 
the past. But it is all retrievable. By far the largest private 
donation for storing our material ever received, that has ever 
been received by the Library, is a $120 million donation from 
the Packard Humanities Institute, which is largely building as 
well as paying for a national facility for housing the 
audiovisual heritage of 20th century America, in which so much 
of the world's history and of our Nation's creativity is 
preserved, but in presently fragile and perishable forms, which 
will receive state of the art treatment as soon as this comes 
on stream, the first part next year and the second part the 
following year.
    This stage of the art facility at Culpeper requires some 
modest requested increases in our own current budget to equip 
it and prepare for the move and to sustain for the future the 
good relationship with our extraordinarily generous donor.
    We are also requesting in the Architect of the Capitol's 
budget continuation of the Fort Meade storage project in 
accordance with the plan previously discussed with the 
committee for specially formatted collections, as well as a 
copyright deposit facility to bring the vast but presently 
scattered creative record of America into one location. We need 
this to fulfill our legal preservation obligations to 
depositors and to assure continuation of the voluntary deposit 
system that annually provides $32 million worth of material 
free for the Library's collection.
    The single greatest challenge facing the Library in the 
digital age, however, is developing a work force that can think 
and work in new ways without losing the immense inherent 
traditional knowledge and memory embedded in our staff. We will 
soon need the committee's support for a flexible package of 
human capital tools in line with practices already in use in 
the Federal Government.
    The Congress must be able to provide Congress and the 
Nation with a whole new type of objective knowledge navigator 
who can seamlessly integrate and alleviate both the old analog 
and the new digital materials into one set of services for the 
Congress and for the Nation. We must be able to attract, 
maintain, motivate, and reward a top-quality high performing 
new generation of what we will be calling in the future 
knowledge navigators, rather than merely librarians.
    With regard to a couple of other issues, Mr. Chairman: the 
police merger. The Library is fully engaged in increasing 
security, integrating police operations, and improving budget 
economy here on Capitol Hill. We are deeply troubled, however, 
by the proposed plan the U.S. Capitol Police have issued for 
implementing the merger of the Library of Congress Police Force 
into the U.S. Capitol Police Force. The proposed plan which the 
U.S. Capitol Police have submitted for Congressional approval 
does not protect the Librarian's statutory and historic 
responsibility for protecting the collections as well as the 
people and buildings of the Library.
    The merger is happening de facto and is eroding the 
Library's authority to exercise this core task since we can no 
longer hire our own police. I look forward to working with the 
committee on this problem.
    The Congress also submitted, Mr. Chairman, during the First 
Session of the 108th Congress a request for reauthorization of 
the national film preservation program. There are now 375 
culturally, historically, and artistically significant motion 
pictures in the National Film Registry which was created by 
Congress in 1988. This vital program has played the leading 
role in identifying endangered films of all sorts, by the way--
there is a tremendous variety of the film record--setting 
national preservation standards, working with other public and 
nonprofit archives to save American films from irreversible 
deterioration.
    Mr. Chairman, the Library of Congress has been the greatest 
single patron of the library in the history of the world, and 
on behalf of the Library past, present and future and all its 
staff I thank this committee for its continued support for and 
interest in the Library. Individual members of this committee 
have provided an unusual level of continuity and guidance and 
support for this institution. We are all in your debt. We look 
forward to working with you as we move the Library fully into 
the new century.
    I will be happy to answer any questions and respond in any 
way I can.
    [The statement follows:]

               Prepared Statement of James H. Billington

    Mr. Chairman, Mr. Vice-Chairman, members of the Joint Committee.
    We live in a world where our health, security, and economic future 
increasingly depend on information--and in a world undergoing the 
greatest revolution in the storage and communication of knowledge since 
the invention of the printing press. I would like to submit, Mr. 
Chairman, that the Library which Congress has created and sustained so 
magnificently has become one of America's greatest assets in both of 
these critical areas. The Library of Congress is a key part of the 
nation's strategic information reserve and a world leader both in the 
gathering in of digitized information and in the dissemination of free, 
high-quality electronic material for our country.
    Out of its collection of 128 million items, with 10,000 added every 
day, this Library provides our nation with many unique items--an 
obscure 19th century German book for a breakthrough in leukemia 
research that no one else in the world had saved, a rare early 20th 
century German record of archaeological digs in Mesopotamia which 
assured us prior to Desert Storm that the southern Iraqi desert would 
hold modern heavy tanks. We found an autobiography of Osama bin Laden 
in our unmatched Arabic collections. Our Law Library digitized and 
delivered in 24 hours the compilation of Afghan civil, commercial, and 
criminal law codes that helped the courts of Afghanistan reestablish 
the rule of law after the Taliban had destroyed the existing codes.
    No one can be sure where America's next global security threat--or 
economic opportunity--will lie, but the Library of Congress will have 
the best odds in the world for finding background information about it. 
We have a crucial need to increase our modest acquisition budget that 
has been declining in purchasing power for more than a decade. We must 
make sure that our global coverage continues in a world where published 
materials, particularly in troubled spots in the developing world, are 
increasing at an estimated 15 percent a year.
    We must properly store and preserve our immense and expanding 
collections. The Library is asking for funding for two major Fort Meade 
construction projects in the Architect of the Capitol's budget: modules 
3 and 4 in the already much-delayed series previously approved by the 
Congress. These two will house specially formatted materials such as 
maps and manuscripts. We also need a copyright deposit facility that 
will at last bring the vast but presently scattered creative record of 
America into one location. This is needed to fulfill our legal 
preservation obligations to our depositors and to assure the 
continuation of the $32 million our depositors save the taxpayers 
annually by voluntarily sending us their new works for registration and 
mandatory deposit.
    By comparison with other national cultural institutions, we have 
had a very low construction budget for the last 20 years. By far our 
biggest new construction project is being primarily privately funded by 
the largest donation every received by the Library: $120 million from 
the Packard Humanities Institute (PHI). Construction is already well 
underway for this National Audiovisual Conservation Center in Culpeper, 
Virginia, which will bring together the world's largest audiovisual 
collections and provide state of the art preservation for these 
presently scattered materials--movies, television, radio, and sound 
recordings--that document so much of the history of the 20th century.
    Some added appropriated funding is needed this year to acquire 
basic equipment and preservation infrastructure for the facility and to 
get staff and collections in place for the move to Culpeper, which will 
begin in fiscal year 2005.
    The Congress's Library is a world leader--both in providing and 
sending high quality digital material everywhere free of charge--and in 
crafting and implementing a distributed national policy for preserving 
and managing ``at risk'' digital content. Much of the 7.6 percent 
increase in the Library's budget request for fiscal year 2005 is needed 
for electronic conversion; business re- engineering in the copyright 
office; preserving CRS' research capacity, and to begin converting to 
user-friendly digital equipment materials for the Library's National 
Service for the Blind and Physically Handicapped.
    Tomorrow, the Library will make available, as he instructed, the 
papers of Supreme Court Justice Harry A. Blackmun--one of our largest 
collections of judicial papers. We have made elaborate preparations to 
accommodate the anticipated wide public, press, and scholarly interest, 
through expanded hours in the Manuscript Reading Rooms and with on-site 
access to significant digitized portions of the collections and web-
site access to collection highlights.
    We have specially prepared for Members of Congress and their staff, 
who wish to view the more extensive digital files, a dedicated computer 
in the LaFollette Reading Room. Materials will include a 362-page 
collection guide, a 500-page transcript of an oral history taken by 
Justice Blackmun's law clerk, Harold Koh, and case files from many of 
the seminal opinions authored by Justice Blackmun.
    Electronically, the Library of Congress is responding to the new 
``Google'' world of search engines by fundamentally changing the way in 
which we identify, gather, and process information to yield knowledge 
for Congress and the nation. We will always have books, maps, and other 
printed artifacts, but we must also capture and preserve the 
dramatically increasing volume of human knowledge that is created in 
cyberspace, and will never see life as a printed book or document.
    Our mission is unchanged: to make our resources available and 
useful to the Congress and the American people and to sustain and 
preserve a universal collection of knowledge and creativity for future 
generations. But the way we fulfill that mission is undergoing a sea 
change. To ensure that digital information is captured and preserved, 
libraries cannot wait until that information is acquired in the 
traditional way, after it is published. It has to be collected at the 
point of creation.
    Thanks to the Congress's appropriation of funds in fiscal year 2001 
and approval of a plan in December 2002, the Library has been working 
with creators and publishers to create digital preservation 
repositories and with creators and legislators to ensure that copyright 
laws balance protection and access. The Library will, in the years 
ahead, have to retrain print-oriented staff and bring in new talents to 
select, preserve, and deliver digital information.
    But the Library of the 21st Century--like America itself--must add 
without subtracting. We must continue to serve as the in-gatherer of 
analog collections while dramatically expanding its on-line information 
services in new and more timely ways.
    The Library of Congress must be a leader in seamlessly integrating 
old knowledge with new information in its services for Congress and the 
nation. In an age flooded with unfiltered information, the Library of 
Congress has the opportunity and obligation to provide Congress and the 
nation with objective knowledge navigators.
    The Congressional Research Service has a long and unique tradition 
of combining scholarly expertise with objectivity and authority. The 
large endowment generously provided by John W. Kluge supplemented by 
other private donations has brought a fresh infusion of world class 
scholarship into our midst.
    The single greatest challenge facing the Library in the digital age 
is developing a workforce that can think and work in new ways without 
losing the immense inherited knowledge and memory of our great staff. I 
will soon be requesting legislation that will give the Library a broad 
based flexible package of human capital tools, in line with practices 
already in use within the federal government. We need to ensure that 
the Library of Congress will be able to attract, retain, motivate, and 
reward a top quality and high performing new generation of knowledge 
specialists to serve the Congress and the American people in those 
areas where the Library has unique obligations.

                           HIGHLIGHTS OF 2003

    During 2003, Mr. Chairman, the John W. Kluge Center officially 
opened at the Library of Congress, bringing some of the world's leading 
scholars on a rotating basis to use the Library's collections and 
interact with public policy makers; the Center for the Book celebrated 
twenty-five years of championing reading promotion programs and 
literacy partnership. Founded by my distinguished predecessor, Daniel 
J. Boorstein, whose death last Friday we all mourn, this center within 
the Library of Congress now has affiliated centers in all fifty states 
and the District of Columbia.
    During this past year, the Library continued to implement its 
multi-year security enhancement plan; including an upgraded intrusion 
detection and security monitoring systems, and upgraded firewalls to 
safeguard the Library's valuable computer resources and overseas 
offices. Working with other information technology professionals in the 
Legislative Branch, the Library constructed an alternate computer 
facility in a remote location to mirror its priority systems in case of 
a disaster on Capitol Hill.
    Also in 2003, the Library submitted and the Congress approved the 
plan entitled, ``Preserving Our Digital Heritage: Plan for the National 
Digital Information Infrastructure and Preservation Program.'' The 
Library began the program's next phase with a call for project 
applications to develop and test models for archiving these materials 
that do not exist in analog form. Awards will be made in April 2004.
    The Library has so far digitized and made available free on our 
website 8.5 million American historical items, adding in 2003 more than 
344,000 new digital items, and five new Library exhibitions. The 
Library's Global Gateway program of bi-national, bilingual internet 
files based on our unparalleled international resources, was formally 
launched with Brazil two weeks ago; and the Congressionally-created 
flagship ``Meeting of Frontiers'' program with Russia will have nearly 
half a million images on-line by the end of 2004. The Library's 
interactive web-site for families, www.americaslibrary.gov, continues 
to grow in popularity thanks to the Advertising Council's first-ever 
national promotion campaign for a library project.

                              ACQUISITIONS

    Significant special acquisitions were made possible by private 
funding during 2003--such the oldest known intact Indian book (a 
birchbark scroll on Buddhist psychology from as early as 200 B.C); and 
a complete set of Curtis's Botanical Magazine, a landmark work of 
natural history literature and illustration. The acquisition of two 
very important new collections made possible by the major private 
donations of Madison Council members will be announced shortly.
    The Library completed in 2003 the purchase of the only known copy 
of the first document of any kind to use the name ``America,'' the 
first map of the new world made in 1507 by Martin Waldseemuller. 
Funding for this historic purchase came from a special Congressional 
appropriation as well as private contributions from the Discovery 
Channel, Gerry and Marguerite Lenfest, and others.
    In 2003, the Library's Veterans History Project received more than 
60,000 items documenting the experience of the nation's veterans and 
their families; and an extremely rare relief model of Utah Beach that 
was used in the preparations for the amphibious D-Day landing at 
Normandy.
    The Library celebrated the 75th anniversary of its large Chinese 
collections and added 9,012 monograph volumes and 15,444 issues of 
Chinese serials, and 192 Chinese microfilm reels in targeted subject 
areas. The Library acquired microfilm and digital copies of 4,000 pages 
of virtually unknown, largely Islamic, manuscripts from Timbuktu, Mali, 
exhibited at the Library in the summer of 2003.
    Significant new manuscript acquisitions included the papers of 
former national security advisor Zbigniew Brzezinski; the original 
kinescope collection from the ``Ed Sullivan Show'', the seminal 
American television variety program (1948-1971); and a unique 
collection of audiotape interviews with Alice Roosevelt Longworth, the 
outspoken daughter of President Theodore Roosevelt.

                             POLICE MERGER

    The Library has been fully engaged in and is committed to 
increasing security, integrating police operations, and improving 
budget economy here on Capitol Hill. We are deeply troubled, however, 
by the proposed plan that the U.S. Capitol Police have issued for 
implementing the merger of the Library of Congress Police force into 
the U.S. Capitol Police force.
    When ricin was recently found at 3:00 in the afternoon in a Senate 
office, Capitol Police and House and Senate Officers met to discuss 
closing the Capitol campus until the threat could be assessed. Library 
officials learned of this incident at 10:00 p.m. only on the television 
news, and Library police were not officially informed until 11:00 p.m.
    Even more serious is the way in which the Capitol Police propose to 
proceed--by stripping the Librarian of Congress of the authority to 
exercise his most basic, statutory responsibility to protect the 
collections as well as the people and buildings of the Library. The 
Library's police force is focused not only on the physical safety of 
our staff, visitors, and building, but on the integrity and security of 
our priceless collections and is the primary arm for the Librarian of 
Congress in discharging this responsibility. The Library must be able 
to request and to present its case directly for the resources and 
policies needed to protect the Library's assets. The Capitol Police 
officers that serve on Library property with special responsibility for 
the collections must be under the technical direction of--and 
accountable to--the Librarian of Congress.
    Under the 2004 Legislative Branch Appropriations Act, the Library 
of Congress no longer has authority to hire new officers to replace 
those that leave our force through retirement or other separation. 
These positions now have to be filled with Capitol Police officers on 
detail to the Library, and we will soon be getting our first such 
group. If no action is taken on the proposed police merger plan, a 
merger will occur by attrition over a period of years, during which the 
authority for the safety of staff and collections will be increasingly 
difficult to implement with a workforce serving only on detail. I look 
forward to working with the Congress to design a merger implementation 
plan that will not undermine the authority of the Librarian.

                           FILM PRESERVATION

    The Library submitted during the first session of the 108th 
Congress a request for re-authorization of the National Film 
Preservation Program. There are now 375 culturally, historically and 
artistically significant motion pictures that I have picked for the 
National Film Registry, which was created by Congress in the original 
Film Preservation authorization in 1988. Annually adding films to the 
Registry enhances public appreciation for the richness and variety of 
America's film heritage and highlights the importance of film 
preservation.
    The forthcoming opening of the National Audio-Visual Conservation 
Center in Culpeper provides a single location and new focus for all the 
Library's vast motion picture, television, and recorded sound 
collections--the largest in the world. Re-authorization of the National 
Film Preservation Program is an essential support element for this 
national program. The Library of Congress has played the leading role 
in identifying endangered films, setting national preservation 
standards, and working with other public and non-profit archives to 
save American films from irreversible deterioration. In passing the 
original 1988 act and subsequent re-authorizations in 1992 and 1996, 
Congress recognized the central federal role of the Library of 
Congress, in developing a coordinated strategy to address the 
challenges of film preservation--particularly for those films in the 
public domain or not owned by major studios.
    The National Film Preservation Re-authorization Act of 2003 [S. 
1923 and H.R. 3569] will also continue the vitally important role of 
the private sector, through the National Film Preservation Foundation, 
a new non-profit charitable affiliate created in 1996. The Foundation 
has raised $6.34 million in private funds and in-kind contributions--a 
magnificent response to the $750,000 in federal funds received to date. 
The Foundation has supported 98 institutions in 34 states and D.C., and 
has preserved and made available more than 630 significant films that 
would otherwise have been unlikely to survive. I hope the Congress will 
support the Library's request for a 10-year re-authorization of the 
National Film Preservation Program.
    On behalf of the Library and all of its staff, I thank this 
committee for its continued support for and interest in the Library. 
The individual members of this committee have provided an unusual level 
of continuity and guidance for this institution. We are all in your 
debt, and look forward to working with you as we move the Library fully 
into the new century.
    I will be happy to answer any questions.

    Chairman Stevens. Thank you, sir, very much.
    You and I have reviewed some of that material and the 
Appropriations Committee has reviewed it. Let me see if the 
vice chairman has any comments or questions.
    Mr. Ehlers. No, I just want to thank you for the report, 
and we appreciate everything that the Library does.
    Chairman Stevens. Do you have any questions, Senator 
Cochran?

    STATEMENT OF SENATOR THAD COCHRAN, U.S. SENATOR FROM MISSISSIPPI

    Senator Cochran. One comes to mind. When materials and 
donations are made available to the Library, it seems that we 
almost always accept them. Is there any criteria that you have 
that guides you in saying no, we cannot accept this or we do 
not have room for this, or we would suggest you try to find a 
university library somewhere that might accept it?
    Dr. Billington. Yes. First of all, we do not accept 
everything. We make judgments: Is this important for the 
national collection or is it not? We often suggest that people 
give it to a local library if it deals with local history or if 
it has some logical connection. Almost all Congressional 
collections, we suggest that they work with somebody from the 
district or their State if possible and so forth.
    In addition, we cannot accept anything that is not formally 
approved by the Library's Trust Fund Statutory Board 
established in the 1920's. So the Library's acceptance of 
collections is contingent on its acceptance by the Trust Fund 
Board as well.
    But yes, we--first of all, in terms of things we look for--
in terms of things that come in to us, I would say we accept 
only a fraction of those that some have suggested. But we have 
a universal collection, so we collect very broadly. We try to 
collect qualitatively. We try to sustain the core mission of 
the universal collection, which is not to say we collect 
everything, but that we try to collect everything that is 
important for the Congress and more broadly for the Nation's 
memory and the Nation's policies, all of which are subject to 
the Congress.
    So it is a limiting factor, yes, definitely. We do not 
accept everything. We will be about to announce in the next 
couple of months two major and, I think one could almost say 
spectacular collections, which will come to the Library in the 
near future. Very often these take a long time to develop. But 
we concentrate on those things that we think are of fundamental 
importance to Congress and the Nation.
    But we are a very creative Nation and since the copyright 
deposit also represents the core of our Americana collection 
many--for instance in music, there have been many great 
composers that have offered us their entire collections and we 
have been inclined to accept them because we already have the 
base of the copyright deposit. So we have the complete 
collections of people like Bob Hope, for instance, or the 
Gershwin brothers or Leonard Bernstein and Irving Berlin, John 
Philip Sousa.
    The addition of these collections, that for instance dates 
back to the 1890's when Congress decided that Sousa, the great 
Sousa collection, which he really created the march and the 
President's own band, ought to be in the national collection.
    Some of the most important collections given to the Library 
are the papers of the Presidents. We have most of the papers of 
the first 23 Presidents of the United States and they came 
largely from the State Department, where they had been housed, 
and it was thought to be more proper to transfer them. So there 
is a lot of transfer of material that is not the formal 
official record of the U.S. Government, which of course goes to 
the National Archives and Records Administration, but papers, 
particularly important manuscript papers.
    There is a kind of informal agreement, for instance, with 
the Presidential libraries, which are part of the Archives, 
that if someone served primarily, whose papers, personal 
papers, are of importance and interest to historians, but 
served primarily in one administration, the first consideration 
would be to go to the Presidential library, although everyone's 
free to do anything they want with their papers.
    So we are inclined to accept and certainly to look for 
mainly papers who served in a variety of administrations over a 
long period of time. So there is a kind of a, I think, an 
understanding between other great repositories and libraries 
and other government institutions that everyone pretty well 
adheres to, which limits what we take in, but still leaves us 
with a very broad and comprehensive collection.
    Senator Cochran. Thank you.
    Chairman Stevens. Any further comment?
    Senator Cochran. No, I have no other questions.
    Chairman Stevens. Mr. Ney.

       STATEMENT OF ROBERT W. NEY, U.S. REPRESENTATIVE FROM OHIO

    Mr. Ney. Just a statement, Mr. Chairman. Just a statement 
that we will work with you on the concerns you have about the 
merger which is happening, as you said, through attrition with 
the Capitol Police and some of the issues you might have about 
conducting law enforcement, and also looking at the different 
types of protection for the collections. I do not want to take 
the time right now, Mr. Chairman.
    Dr. Billington. Thank you. General Scott has really been 
handling that for us. I am sure we will be glad to talk to him 
about it. Our main concern is that the collections--and this 
was a concern, has been a historic concern of this committee, 
too--that the security of the collections poses a very special 
set of problems and obligations that are absolutely essential 
if we are going to be preservers of most of the Nation's 
creative memory in the private sector.
    No other country has preserved, let alone the legislative 
body, has sought to preserve, as insistently as this did. When 
the copyright deposit was in the judicial and the executive 
branch, as it was for a while, we did not preserve that record. 
Once it came under the legislative branch of the government in 
1870, 1971, the record is virtually--has been very well 
maintained and sustained.
    So we are very concerned, and there was concern when we 
discussed security problems and tightened and closed the stacks 
definitively and made a number of other security provisions 
that we have been steadily implementing. Security was a central 
concern of this committee. So we feel that it will be helpful 
to be able to discuss it with you and for the committee to 
understand how we continue to exercise what is one of the most 
fundamental responsibilities in the Library--that is, to make 
sure that the security of the collections, along with the 
obvious needs, as well, on questions of security of buildings 
or people, are also maintained.
    So we think we can cooperate with this program, but we 
would like to have that opportunity.
    Chairman Stevens. I think we would all like to work with 
you on that police issue. It is going to take some action by 
both of the subcommittees of the Appropriations Committee, I 
think, to work out. But we will pursue that with you. We would 
like to have your help, Mr. Ney.
    Mr. Larson, do you have anything?

   STATEMENT OF JOHN B. LARSON, U.S. REPRESENTATIVE FROM CONNECTICUT

    Mr. Larson. Thank you, Mr. Chairman.
    Just briefly, again thank you for the fine work you do on 
behalf of the Library and the Nation, and I concur with what 
the chairman said at the outset, you get fine marks with 
respect to your predecessor Daniel Boorstein in his tenure here 
as Librarian of Congress.
    You mentioned in your remarks 41 percent turnover. How is 
that going to impact us in terms of institutional memory? Do we 
have a plan? That is a huge number.
    Dr. Billington. Well, that is of course the number that 
are----
    Mr. Larson. Potential.
    Dr. Billington [continuing]. Potential, and it is not all 
have reached retirement age, but they have reached eligibility. 
Many of them will have reached retirement age. We have been 
working on a succession plan for a number of years, but this is 
really our priority concern and I expect that by the next 
budget beyond the one that is currently under consideration we 
will have some rather massive plans to deal with this question, 
because it is not simply a question of replacing existing 
positions. It is a question of redefining many of these 
positions, because we have to be able to--the mission of the 
Library does not change, which is basically fundamental for 
Congress first of all and for the Nation as well.
    Because of its size and potential, this place has to 
acquire, preserve, make accessible, promote the use of by more 
people in more ways the knowledge, information, and creativity 
of the world, knowledge and information particularly of the 
world and the creativity particularly of our own country, the 
memory of which is likely to erode without that vast copyright 
deposit.
    So how do we do that? Well, we have to train people and we 
have to also, because of the tremendous inundation of the 
Internet, we have to have a whole new type of filtration. The 
filtration which occurs with editing and publishing in the 
print world does not occur on the Internet. You just have an 
immense amount of material. It is growing exponentially even as 
more people enter the print era that are simultaneously 
entering the Internet era.
    So this is going to be a massive task of redefining. 
Moreover, we have to make much more efficient use--I think the 
Congressional Research Service, which you will hear later, has 
a great tradition established, very unique in the scholarly 
world, of the object of filtration and synthesizing of 
knowledge for the purposes of the Congress and in response to 
their concern.
    But that can be enriched and the whole services of the 
Library can be enriched by better use of our foreign 
collections. We are increasingly involved in places in the 
world in which few institutions have the materials that we do 
and that we need to keep on acquiring in places nobody would 
have thought of having a collection on, Kosovo, Chechnya, 
Burundi, and Afghanistan 20 years ago. But these are all 
tremendously important, and that is why we need to increase our 
essentially flat acquisitions budget.
    But we also need to get that material used and in service 
for the Congress so that we can have it be accessed, not only 
to what the English language intercommunication on the Internet 
provides; we need to filter that. We need people who can filter 
that and we need people who can use it more effectively. We 
have the largest Arabic collection in the world, the Library of 
Congress, but we need people who can use it, mediate it, and 
get it into the stream of what you need.
    The private endowment that John Kluge, the chairman of our 
Madison Council, has given us has enabled us to bring important 
people who could think broadly about this and stimulate us. We 
just had recently the former president of Brazil Cardoza, and 
we have the former president of the Czech Republic Vaclev Havel 
arriving shortly. These are major figures. We had the recent 
visit and spent time with the Congressional Research Service of 
an endowment that the Friends of Henry Kissinger created for an 
annual lecture by George Schultz.
    So we have a stream of people of great experience and 
knowledge coming in, on private funds, but providing increased 
knowledge. We have had one of the great Islamic scholars in the 
world, Mohammed Arkun, make a number of visits to the Library.
    So we have to--because there is no filtration of the 
Internet and because there is just so much material and because 
the concerns, the security concerns, the economic opportunities 
as well as the competitiveness problems of our economy, they 
are all growing internationally. We have just devised a whole 
new system for getting material from China. We have the largest 
Chinese collection outside of the Chinese-speaking world, but 
we have a whole new system for getting stuff from the Chinese 
provinces, which is going to be very important because in that 
country too, different forces are at work. We need to 
understand it better.
    So all of this is I think of capital importance if we are 
going to serve Congress--and it requires us to have people who 
have both substantive knowledge of languages, fields, and 
cultures and, at the same time, technical fluidity and ease in 
dealing with the Internet and also good judgment so they can 
help filter this flow of information, because otherwise we are 
just overloaded with information, with unsorted data, with 
unverified facts, the amount of unverifiable information.
    So this is really our major task for the next few years. It 
is not reflected quite as much in our current budget because we 
have a set of needs, particularly the storage needs, that are 
largely in the Architect's budget that are not new and, since 
we have no capital budget, they have to come in for annual 
appropriations.
    The storage, for instance, at Fort Meade is already much 
delayed, but that was part of a project that we have developed 
and discussed with the committee before as part of a general 
strategic plan over many years. Our requests for capital, major 
capital construction, have been relatively modest, I think, 
compared to many cultural institutions, but they do occur, 
without a capital budget, on an annual appropriation basis.
    The biggest one, this audiovisual conservation center, as I 
have indicated, is largely being funded privately. So we do 
have these requests and needs, but the biggest one is going to 
be the human capital. That has been our greatest asset of this 
Library, even greater than the collections, is the people who 
preserve them, chose them, and made them accessible. They have 
done a great job over the years.
    We are going to try to set it up so that they will mentor, 
the outgoing people will help mentor the incoming people. That 
is already happening at the Congressional Research Service and 
other parts of the Library, but we are going to increase that 
immensely.
    We do not think, by the way, that everybody who can retire 
will retire. People like to stay on, and it is on the whole, of 
great value because they get the feel for the collections. We 
have problems of quantity. We get 22,000 artifactual items 
every day. Narrowing that to the 10,000 we keep is also a 
tremendous skill set of people who no one appreciates outside 
of the Congress. I as an old pack rat go down in the discard 
pile periodically just to see if there is anything anybody 
might conceivably want, and I have never found anything. And as 
my wife can tell you, I never throw anything out at home.
    So this is a huge problem, getting the right staff. But we 
have had a great staff, we have a great staff. But we are going 
to have to not only get an equally good one, but we are going 
to have to get staff who have skill sets that we have not had 
to have as urgently in the past.
    Chairman Stevens. We had a request from former Senator 
Slade Gorton that the Library acquire the Harper's Weekly John 
Adler collection. I do not know how many members are familiar 
with that. We have so far not pursued that. Would you tell us 
just for the record what your opinion is about that? There is a 
request pending now before the Appropriations Committee for 
$7.5 million to be used to acquire that, with some additional 
moneys from non-Federal sources. Are you interested in that 
project?
    Dr. Billington. Well, I have met several times with Mr. 
Adler and his advisers. The digitized version of Harper's 
Weekly and some other things he has would be certainly accepted 
by the Library if offered as a gift. We have not asked for 
appropriations or are seeking private contributions to purchase 
the collection. It is not a priority for our acquisitions 
budget, particularly in the current tight budget environment.
    But it is a very valuable collection and it could be--
certainly we would be glad to have it. It would add to--we have 
8.5 million items of American history and culture already on 
line. This would be a very valuable addition and we would be 
very happy to accept it as a gift. It might be--it would be the 
kind of thing that, if we could get it, we would be very happy 
to have it, I think, if it could be acquired, particularly in 
the context of some kind of educational program which would 
support a very great need, that is to train or to have some 
program for expanding the training of teachers in the 
educational use of the Internet.
    But we already have a great deal online and, much as we 
would love to have it, I cannot say that for the Library's 
budget as such that it is an immediate high priority.
    Chairman Stevens. Any member have any further questions of 
the Librarian?
    [No response.]
    Chairman Stevens. Could we ask you, Director Mulhollan, if 
you would come up and join the Librarian and let us chat for a 
minute about your situation with the Congressional Research 
Service. We are not really going into appropriations, but you 
are really a very essential arm of the Congress. All the 
Library is, but we use your Research Service probably as 
Members more than we do the rest of the Library. So we thought 
it would be nice to have us hear from you what your situation 
is.
STATEMENT OF DANIEL P. MULHOLLAN, DIRECTOR, 
            CONGRESSIONAL RESEARCH SERVICE, LIBRARY OF 
            CONGRESS
    Mr. Mulhollan. Thank you. I appreciate that, and I 
appreciate the support that this committee has given over the 
years. Just to know, last week--we are statutorily obligated to 
report on an annual basis to the Joint Committee on the Library 
and we provided that to you for our fiscal year 2003 last week.
    I will summarize. I think that for CRS, our perspective, 
the Congress plays a critical role in a representative 
democracy during war. This is a particularly difficult time 
because this war on terrorism does not have boundaries and 
there is no end in sight. I maintain that the capacities to 
help the Congress to sustain its role have a critical claim on 
scarce resources.
    Then the logic follows is that CRS helps the Congress in 
that capacity. In that annual report we talk about how our 
folks were there during the Congressional joint resolution on 
the war declaration. We were there with regard to issues with 
regard to war powers, declaration of war, preemptive use of war 
in international law. When military action started, CRS 
assisted Congress in a whole range of questions on Iraq and the 
Middle East, U.S. efforts to change the Iraqi regime, the U.N. 
Food for Aid program, and continuing with the whole major 
effort of the largest since the DOD, the creation of the 
Homeland Security, the impact on federalism, the impact now on 
civil service and personnel structures, and across the board on 
each of the programs, and still evolving on homeland security.
    I think we are trying to do our best to help the Congress 
on these many and many more complex issues. My concern is is 
that the one that we are all aware of, and that is kind of 
silently sitting here, that we are facing a very difficult 
fiscal circumstance. What I have mentioned in my statement is 
that if we do not get our mandatories--the cost of living, we 
are 87 percent salaries; if we do not get that, that means $4.3 
million. That is 37 positions I do not have, which are--and 
together with that we are looking for a one-time ramp-up of 
$2.7 million because basically we have greater expertise and 
greater need coming into the service in the last 10 years. 
Aside from special hiring programs our average grade was GS-7, 
step 9. Now it is 13.1. We have got a better, smarter force, 
but it is a more expensive one.
    If we do not get, those two lump sums, $7 million added 
onto our budget, we are going to lose over 60 positions. That 
is almost 160 hours on each of the issues that you are talking 
about. We cover 160 policy issues, providing over 900 reports, 
literally thousands of confidential memoranda, daily briefings, 
both oral and telephone consultations, on each of those issues 
that you have to do to maintain your responsibilities, and I 
hope we are there for you, and I am looking for the Congress' 
help to sustain that capacity, because these are very difficult 
times.
    [The statement follows:]

               Prepared Statement of Daniel P. Mulhollan

    Mr. Chairman and Members of the Committee: I am pleased to appear 
before you today to discuss the work of the Congressional Research 
Service (CRS) in fiscal year 2003 and its priorities for the future. I 
want to thank this Committee for the confidence it has shown in CRS in 
the past and the support that has enabled CRS to serve the Congress 
during these difficult times of demanding policy deliberations, which 
have been made especially challenging because of our heightened need to 
provide for security at home and abroad, and because of greatly 
increased fiscal constraints.
    As CRS completes its ninth decade of service to the Congress, we 
continue to uphold our sole mission: We work exclusively and directly 
for the Congress, providing research and analysis that is 
authoritative, timely, objective, nonpartisan, confidential, and fully 
responsive to the policy-making needs of the Congress.
    The Congress continually and routinely calls on CRS research 
assistance as it examines policy problems, formulates responses, and 
deliberates on them across the broad range of complex and challenging 
issues on the legislative agenda. Our paramount concern, especially 
given the critical constitutional role of the Congress during a time of 
war, is preserving independent, accessible, and responsive analytic 
capacity in the legislative branch.
    Mr. Chairman, my statement today highlights CRS accomplishments in 
supporting the Congress over the past year. My statement also outlines 
the fiscal challenges CRS will face in the upcoming year and reports on 
the steps we have been taking to contain costs. I am concerned about 
the Service's ability to continue providing the level of support 
Congress has come to rely upon. For the coming year, we seek to 
maintain our research support for the Congress including priorities 
targeted to meet major policy-making needs as Congress faces continuing 
and unfolding policy concerns, as well as significant, unanticipated 
crises.

Fiscal Year 2003 Highlights in CRS Legislative Support
    Throughout fiscal year 2003 Congress called on CRS as it confronted 
numerous, challenging public policy problems in its demanding schedule 
of legislative and oversight activities. I have submitted to you our 
2003 annual report outlining the breadth and depth of support on key 
public policy issues. Today I will touch upon some issues emanating 
from the war with Iraq and efforts to enhance homeland security last 
year. CRS has and continues to play a significant role in keeping the 
Congress abreast of policy questions, options and their implications 
during rapidly changing situations of vital importance to the Nation.
    The War with Iraq.--U.S. involvement in Iraq--the diplomatic 
activities and military preparations leading up to the war, the war 
itself, and the war's aftermath--dominated the congressional foreign 
affairs and defense agenda during the year. CRS specialists responded 
to diplomatic, military, and postwar issues; provided briefings on the 
congressional joint resolution authorizing the President to use force 
against Iraq; and fielded queries on war powers, declarations of war, 
and the preemptive use of force under international law.
    As military action began, CRS assisted with issues such as Iraq's 
relations in the Middle East, U.S. efforts to change the Iraqi regime, 
and the United Nations oil-for-food program. Analysts examined the 
postwar needs of Iraq for humanitarian and reconstruction assistance, 
the role of the international community and the United Nations, Iraq's 
economy and foreign debt, and the likelihood that any U.S. loans to 
future Iraqi governments would be repaid.
    Homeland Security and the Potential for Terrorism.--To assist the 
Congress as it addressed homeland security and terrorism, CRS continued 
its Service-wide, coordinated response that draws upon a wide range of 
expertise. Following passage of the Homeland Security Act, CRS experts 
developed a comprehensive organization chart that identified statutory 
requirements for congressional staff who monitor the establishment of 
the Department of Homeland Security (DHS). As Congress began oversight 
activities pertaining to this new government agency, CRS provided help 
with procedural and jurisdictional questions, briefings on the 
operational and organizational aspects of DHS, and analyses on the 
protection, use, and disclosure of critical infrastructure information 
submitted to DHS. Anticipating the subsequent intense demand for 
information and analyses on new or expanded programs related to 
homeland security, CRS examined such matters as emergency management 
funding programs, federal disaster recovery programs, and federal 
assistance programs aiding state and local government in terrorism 
preparedness.
    Other related domestic policy issues related to the war and 
terrorism arose late in the 107th and continued throughout the 108th 
Congresses. CRS responded to requests regarding bioterrorism and health 
issues, such as the public health system's ability to respond to health 
threats posed by chemical and biological agents; border and 
transportation safety; the continuity of Congress in the event of a 
catastrophic attack; critical infrastructure security including 
communications systems, oil and gas pipelines, electrical power grids, 
and highway systems; immigration concerns such as restructuring the 
issuance of visas; and legal ramifications of anti-terrorist 
enforcement, including the roles and authorities of law enforcement and 
the intelligence community.

Cost Containment Efforts
    Over the past several years, in order to sustain the level of 
research support on issues such as those outlined above, CRS has 
conducted numerous management reviews to evaluate current operations, 
maximize value, and implement cost containment measures. As stewards of 
the taxpayers' money, it is our obligation to review continuously how 
we can work most cost-effectively. Our reviews identified opportunities 
for containing operational costs of current services: for example, 
closure of the Longworth Research Center and one copy center, 
elimination of the Info Pack, and reorganization of the Service's 
information professional staff. In addition, the Service formed 
collegial research partnerships with major public policy universities 
to enhance research capacity, created a hiring strategy that does not 
routinely replace staff attrition one-for-one, but rather continually 
adjusts the work force composition to respond to the evolving needs of 
the Congress, and examined outsourcing of selected activities where 
cost efficiencies could be realized. I assure you that CRS has 
exhausted all reasonable means of realigning existing resources to 
maximize its efficiency and effectiveness in supporting the Congress. 
Yet despite these many efforts, our research priorities for the future 
remain in jeopardy without additional funding.

Fiscal Year 2005 Budget Request
    Mr. Chairman, I am requesting a total of $100.9 million for fiscal 
year 2005. This represents a 10.7 percent increase in funding over 
fiscal year 2004. This funding request is critical to the continual 
delivery of high-quality analysis to the Congress. A 2001 congressional 
directive obligates the CRS director to: ``. . . bring to the attention 
of the appropriate House and Senate committees issues which directly 
impact the Congressional Research Service and its ability to serve the 
needs of the Congress. . . .'' [H. Rept. 1033, Cong. Rec. 146, H12228, 
November 30, 2001]. I am fully aware of the fiscal realities that the 
Congress faces and the hard choices that must be made in the coming 
months, and I make a request for this funding because I believe that 
these resources are critical to preserving our ability to provide the 
Congress with the expertise and services it has come to rely upon so 
heavily.
    The remainder of my statement summarizes three critical challenges 
facing the Service this upcoming year--preserving the Service's 
research capacity, meeting congressional requirements, and funding 
uncontrollable increases for essential research materials.

Preservation of CRS Research Capacity
    Preserving CRS's research capacity is of the highest priority. Over 
the last several years, with the help of the Congress, the Service has 
been able to abate erosion of its workforce. The Service's capacity--
measured by the number of full-time equivalent positions (FTEs)--has 
decreased from 763 in 1994 to 729 this year. After early and prolonged 
delays due to the implementation of the Library's new merit selection, 
the Service has nearly rebuilt its capacity by hiring much needed 
analytic staff. To preserve this capacity the Service is requesting two 
actions full funding for its mandatory pay and inflationary increases 
and a one-time adjustment to sustain its current ceiling of 729 full 
time equivalent staff.
    CRS needs $4.3 million to cover its mandatory and price-level cost 
increases. Without this adjustment, the Service would have to reduce 
its full-time equivalent (FTE) capacity by 37 staff. In addition, the 
Service's budget request includes a one-time financial adjustment of 
$2.7 million to sustain the CRS current FTE level of 729. Without the 
one-time funding adjustment, CRS would have to staff down further by 
another 25 FTEs.
    Change in the CRS workforce composition is an increasingly 
significant factor affecting personnel costs. The nature of the work--
reflecting the increasingly complex and specialized research and 
information requirements of the Congress--dictates that CRS hire 
individuals with high levels of formal education and specialized 
experience. In the period from fiscal years 1995 to 2003, the grade 
level of the average new CRS hire has increased from a GS-7, step 9, to 
a GS-13, step 1, not including special hiring programs.
    When Congress confronts unanticipated major policy events, it turns 
immediately to CRS to draw on the existing stock of knowledge of CRS 
experts and their proven ability to assess situations and options 
reliably and objectively. Congress gained significant, immediate 
support from CRS experts as the world listened to early reports of the 
Columbia Space Shuttle accident, during the electricity blackout last 
August, when Mad Cow disease was found in the United States, when ricin 
was discovered in a Senate office building, and on many other 
occasions.
    Congress routinely turns to CRS as it engages in long-term policy 
endeavors for which precedents or experience is limited. Congress is 
receiving continuing assistance from CRS experts in formulating, 
implementing and overseeing a complex complement of provisions for 
homeland security; in grappling with major revisions in government 
personnel practices; in responding to an array of novel assaults on 
corporate and financial integrity; in responding to world health 
threats from SARS, avian flu, and AIDS; in assessing unique conditions 
in Iraq relating to security, reconstruction and governance; in 
relating a mix of policy objectives across the use of the tax code and 
providing for a robust economy in a far more globalized setting than 
experienced before.
    The Service's productivity and performance in fiscal year 2003 are 
best illustrated by four measures of its workload during the year: (1) 
support for 160 major policy problems at all stages of the legislative 
agenda; (2) maintenance of 900 key products in major policy areas, 
representing a 30-percent increase over the 700 products maintained at 
the close of last fiscal year; (3) immediate 24/7 online access to key 
products and services through the Current Legislative Issues (CLI) 
system on the CRS Web site, with a 10-percent increase in congressional 
use of our electronic services over use last year; and (4) custom work 
for the Congress--thousands of confidential memoranda, in-person 
briefings, and telephone consultations. In fiscal year 2003, CRS 
delivered 875,197 research responses, a number that includes analysis 
and information requests, product requests, in-person requests and 
services at Research Centers, electronic services, and seminars.
    Without the full funding of our mandatory costs and the one-time 
adjustment to our salary base, CRS would loose a total of 62 full-time 
equivalent staff--a 9 percent reduction to its workforce. The results 
would be devastating. What could be said with certainty is that, 
overall, CRS would not be able to provide the Congress with 102,300 
productive work hours per year. For example, for the 160 active policy 
areas for which CRS maintain ongoing research coverage, 682 productive 
work hours--more than 21 weeks per year per major issue--would be 
unavailable to the Congress. While the Service would do its best to 
carry out its mission to serve the Congress as it carries out its 
legislative function, this outcome would, by the very scope of its 
effect, force the Service to reduce seriously or eliminate customized, 
timely, and integrative analyses of some critical policy issues. It 
would be difficult to predict what issues would be the most impacted 
but seasoned, expert staff working on high demand issue areas would 
likely leave and we would not be able to replace them.

Meeting Congressional Requirements
    Another challenge facing the Service is to support CRS business 
continuity and improved technological infrastructure activities as 
required by the Congress. I am seeking $622,000 for continuing 
operations of the alternative computer facility (ACF) that houses back-
up and emergency computer and other technology capacity for the 
Congress, the Library and CRS. With this facility CRS will be able to 
meet needs of the Congress in emergency situations while maintaining a 
secure and reliable technology environment.
    The Service is also requesting $549,000 to develop the XML 
international standard authorized by the Congress as the data standard 
for the creation and accessibility of all congressional documents 
through the Legislative Information System (LIS). CRS will work with 
the Library's Information Technology Services to implement this much-
needed capability. Without funds to replace the existing search system, 
the LIS will need extensive, costly, and proprietary modifications to 
be able to receive and index the legislative documents you need.

Meeting Uncontrollable Inflationary Increases for Essential Research 
        Materials
    And the last challenge facing the Service is funding research 
materials. Providing accurate, timely, authoritative, and comprehensive 
research analysis and services to the Congress has become increasingly 
difficult due to the high annual increases in the costs of research 
materials. Thus our budget includes a one-time financial adjustment of 
$1.0 million to meet cumulative increases over recent years in 
subscription and publication prices. Restrictive industry policies 
limit our alternatives for obtaining needed materials, especially 
electronic resources, in a more cost-effective manner. Information 
resources sought with the additional funding include those that provide 
information on port security, prescription drug pricing, and the nature 
and status of corporate financial reporting.
    In closing, Mr. Chairman, I appreciate the opportunity to inform 
the Committee about the state of CRS. During a time of war, Congress, 
the First Branch of Government, must ensure that it maintains its 
independent capacity to analyze the complex challenges that the Nation 
confronts in combating terrorism and sustaining homeland security.
    I trust that you agree that CRS contributes significantly to this 
independent capacity of the Congress. I also trust that you believe we 
are fulfilling our mission in a way that warrants your continued 
support. I am, of course, always available to answer any questions that 
the Committee might have.

    Chairman Stevens. When I first came here, it is my memory 
that in order to have access to the Congressional Research 
Service I had to go through a committee to make a request. 
Today you respond directly to the request of any Member, is 
that not right?
    Mr. Mulhollan. That has always actually been the case. We 
always, since actually the 1946 legislation, the first 
Legislative Organization Act, 1946, then the Legislative 
Reference Service was founded, both to Members and committees, 
and that is our statutory charter. So an individual Member as 
well as committees.
    Now, what happened, what you are referring to is that major 
studies at the time were requested when you would have a letter 
from a committee. Our usual standard has been as far as 
prioritization, is that the chair and/or ranking member or the 
member of the committee of jurisdiction. It has always been 
roughly trying to meet the priorities that Congress gives to 
us, but for always we have tried to do our best to meet, 
through negotiation on a continuing basis, meet the concerns 
and the questions that each of Member of Congress has brought 
up.
    Chairman Stevens. But are you not putting out a great many 
more individual reports for Members than you used to?
    Mr. Mulhollan. Yes, we are. In part, I think it reflects 
the challenges that the Congress has. I mean, there are a whole 
range of new issues alone that you helped us with on 
technology, and the impact of information technology and 
telecommunications are issues that are expanding exponentially 
as far as the legislative agenda is concerned.
    You can look on one aspect of terrorism, bioterrorism, and 
a whole range of issues. We had a report on ricin, a short 
report written by a biologist and a physicist together 1\1/2\ 
years before the ricin attack here, updated immediately and 
Members and staff could get first-hand information about its 
range and what have you, as an example.
    Chairman Stevens. I am worried about the problem of 
responding in a very activist Congress to each Member. I really 
think that Members--I am guilty of this probably myself--we 
would rather have a memorandum from you to say, the CRS says 
this, than have a memorandum from our own staff, and some of 
them, very frankly, may have more experience in the area than 
your people do.
    But I do think that you are getting to the point where you 
are being used a little, and I wonder how we might slow that 
down. I do think there ought to be some priority given to basic 
issues that the Congress as a whole faces, rather than some of 
the issues that any Member on either side would utilize. Once 
your people get involved in those, they are tied up and they 
really cannot respond to the committees.
    Mr. Mulhollan. Well, I would submit to you I think that the 
issues that the service gets involved with are driven by the 
committee agendas at the subcommittee and committee level, and 
that what we try to do and do very well is manage the workload 
to focus on aspects of questions. So that if you are concerned 
with a particular issue with regard to marine fisheries and Mr. 
Larson also has another aspect coming from the eastern 
seaboard, we try to look at that and manage the issues in such 
a way that the report is out there to help both of you with 
regard to the general issue and then specifically, through 
conversation or specific memoranda, get to the particular 
issues that you have.
    We deal with and manage a significant legislative demand by 
finding correspondence on various issues to be able to manage 
that workload in a very cost effective way. I would submit 
oftentimes a CRS memoranda from staff can and does become 
actually the memoranda from the staff that we contribute to, 
because we are in a work process so that the staff, and I urge 
staff, to take some sections from a service report that is 
helpful and add it to the memoranda.
    If you are the style you want a one-pager, they take two 
paragraphs from the service report and they add the particular 
issue of focus, let us say it is particularly dealing with 
Juneau on one aspect and they know that, and the issue, and you 
have got a one-pager for the Member. A lot of service reports 
are tailored to the Member, drawing upon that, and that should 
be. We are a shared resource.
    Chairman Stevens. I do not want to belabor it, but I do 
think the real problem is--we had an attack on your entity once 
and I helped defend it on the basis of shared staff. But you 
cannot share the number of people you have with 535 people all 
at once. The prioritization problem is there and a constant 
one, and I hope you are reviewing that in terms of responding 
to people who have a task to perform as opposed to people who 
are just seeking information.
    Mr. Mulhollan. We are legislatively focused. We continually 
say, okay, what is the legislative purpose behind that. And our 
statute requires us to: Are you looking at drafting a measure, 
drafting an amendment? We continue to focus on the lawmaking 
function. That is our job.
    Chairman Stevens. Good.
    Mr. Ehlers?
    Mr. Ehlers. Yes. First a comment. It may comfort you to 
know at one time I issued a request on the history of contested 
elections in the House because I was chairing one. The 
Congressional Research Service decided that was not a 
legislative matter and it took me a long time to get a report. 
So not everyone gets prioritized. They do prioritize, I can 
assure you of that.
    A question, Mr. Mulhollan. In 1995 the Congress 
discontinued the Office of Technology Assessment and passed 
some duties on to the Congressional Research Service. I have 
noticed in the years since then that we more and more are 
asking the National Academy of Sciences, the National Research 
Council, to do studies for us, which we pay for. They are not 
particularly cheap.
    Have your requests increased since we made that decision in 
1995? Are people automatically going to the National Academy? 
Furthermore, how many scientists do you have on staff to handle 
requests if they come to you?
    Mr. Mulhollan. Well, with regard to the first question, I 
would submit to you that the kinds of questions that OTA 
handled were quite different from the Congressional Research 
Service. OTA did technology assessments. There were roughly, I 
believe, about 25 a year. They were very in-depth. They brought 
to the table the private sector, the executive, the Academy, 
together to look at a complex issue.
    Our job is policy analysis. In statute we are to, as much 
as possible, anticipate the consequences of alternative 
provisions in proposing and the drafting of law.
    Mr. Ehlers. Did your workload go up after that?
    Mr. Mulhollan. Yes. But the number of science questions, 
science-related questions, has gone up. I do not have any--I 
cannot give you any definitive figures. What we have done, and 
the Congress has helped us, actually in 2001 Congress gave us 
five additional senior GS-15 positions on impact of technology 
on Congress itself. Most recently, in 2003 we got seven 
positions, also five positions on terrorism, which included an 
epidemiologist and a bioethicist.
    We also have, for the aging we have a demographer, we have 
a gerontologist, a geneticist. We have increased also through 
our succession initiative, because we are in the same situation 
Dr. Billington was mentioning about our succession planning, to 
maintain our science capacity with physics, biology, and the 
solid sciences, coming in to expand that. Our scientific 
capacity has increased, not to the degree that I would like to 
see or I think you would like to see or the Congress needs, but 
we have increased that. I could give you more solid figures.
    Mr. Ehlers. I do not want to take more time now, but if you 
could send me a note on that I would appreciate it.
    Mr. Mulhollan. You have got it.
    Chairman Stevens. Mr. Ney?
    Mr. Ney. Thank you, Mr. Chairman.
    I thought the Internet, when I first heard of it, would 
cure all the--this did not come from you--but cure all your 
problems, because the staff could just research everything 
right there. It obviously has not decreased your workload, 
having the Internet available.
    Mr. Mulhollan. Well, it actually has helped in managing the 
service. CRS' web site provides on a 24 by 7 basis to Members 
and staff of the committees service analysis on a constant 
basis. So that when, for instance, when the Space Shuttle 
Columbia came down, our nationally known expert Marsha Smith 
was over the weekend and had up on Monday morning----
    Mr. Ney. No, no, I am sorry. I mean, our staff should be 
able--at one point in time I was told here years ago that the 
Internet would allow our staff to go ahead and conduct research 
without calling CRS. In reality, there are issues with the 
accuracy of information and actually locating that for which 
you are looking. That is what I meant.
    Mr. Mulhollan. Well, in that instance, you are quite right. 
This was several years ago: One of the major search engines, 
when you put ``holocaust'' the first 23 of the 25 said it did 
not exist. There are significant problems as far--and that is 
why I think Dr. Billington has talked about why librarians are 
expert as far as navigation on the concern.
    But what has happened is, as I indicated--and we closed the 
Longworth Research Center as a cost-benefit--is that the 
information-seeking behavior of Members and staff has changed 
and certain specific questions can be obtained, factual 
questions, but they need to be checked, but the kinds of 
questions we are getting are actually more complex. It is hard 
to document, but that is in fact the universal response that I 
get from my colleagues.
    Mr. Ney. I will not take much more time. We had LSC in 
Ohio--I do not know if you are familiar with that--when I was a 
State senator. It was this great research engine and resource 
for the legislature. What you do is clearly important. If we do 
not have you, if you cannot do it, it is going to not allow us 
to respond to constituents, because things have changed.
    The opening up of people knowing about hearings and 
information creates a great ability to get information out to 
the public or to the world, but it also creates work, too, 
because there are more people who know what is going on and ask 
us questions.
    I will just close by saying, too, something that our great 
ranking member Congressman Larson worked on, that we did and we 
got a lot of heat for it, but it ties to your potential 
bankruptcy. We made a decision, and there was a pilot previous 
to us that looked at CRS and making every single CRS product 
available online.
    We decided if a Member wants to do that, that is fine, but 
if the Member does not want to do it that is fine, too, because 
there are a lot of things we will go research and, frankly, it 
is sensitive information in the sense that when you put it out 
there, what constituent asked you to research it. So there is a 
confidentiality issue.
    I know some people are not happy about it, but it was 
proven correct what we did, because I got a phone call last 
week. There were some lobbyists who were horrifically upset 
with Congressman Larson and me because they could not get 
freebies any more off of CRS through Members offices. So I 
think what we did was correct. I did not want to comment, but I 
just thought I would say that. That would have cost I think 
millions and millions of dollars, for you to have to put every 
single thing on line.
    Mr. Mulhollan. Thank you.
    Chairman Stevens. My apologies. We have a tradition of 
going from one side of the Congress to the other and I did not 
look to my right. I should have looked. Senator Cochran.
    Senator Cochran. Mr. Chairman, thank you very much.
    I was pleased to notice in your statement, Mr. Mulhollan, 
that you refer to the report that we included in 2001 setting 
forth our commitment to support the Congressional Research 
Service and its budget request to meet the staffing needs so 
that you can respond to the Congress. I still think that when 
we have it in the title of this institution, the ``Library of 
Congress,'' that is what it means. It is the Library of 
Congress, for Congress, to support Congress.
    It also is, as Dr. Billington has often so eloquently 
pointed out, a national treasure as well, and it goes way 
beyond that. But still, this is a core function, and I am 
hopeful that your budget request can be approved and supported 
by the committee.
    Mr. Mulhollan. Thank you. I appreciate that.
    Chairman Stevens. Mr. Larson.
    Mr. Larson. Thank you, Mr. Chairman.
    Just a comment. I appreciate your eloquent defense of the 
need to make sure we continue to provide Members of Congress 
with the most up to date and knowledgeable research available 
to us. It is a core function of the institution and you perform 
your jobs admirably. I want to thank you for that.
    Mr. Mulhollan. Thank you.
    Chairman Stevens. I am going to close with just a comment 
to you two. I would like to have you consider some kind of a 
Congressional hour once a week, that we will know if we come 
over there we will see another facet of the Library and have 
that facet explained to us, and leave it open to Members or one 
staff from each. Theoretically you could have 500 people. You 
are not going to have that. And let us know what the subject is 
going to be.
    I find at times there are things over there that I did not 
even dream were there. As long as I have wandered around 
there--and I have been wandering around there since 1950, as 
you know--it is still a complex thing for us. I would like to 
have a show and tell hour for Congress and the staff once a 
week. You pick the time, like 9:00 to 10:00 in the morning on a 
Tuesday or something, and we will see that you get some people 
over there to try and learn more about what you are doing, so 
we can be more articulate in terms of defending your budgets 
and the authorizations we have to give you.
    Just consider it. Now, it is not a mandate. That is just a 
thought. Okay?
    Dr. Billington. It would be helpful if you indicate to us 
what the best time would be for Members.
    Chairman Stevens. For the Senate it would be Tuesday 
morning. There are not enough here on Monday morning, I have 
got to tell you.
    I do not know about you. We do not usually meet before 
10:00 on Tuesday morning. So if we had a 9:00 to 10:00 show and 
tell on Tuesday morning, we could stop by there on the way to 
work, if we were interested. And you would send us a bulletin 
on what it is going to be next week, okay.
    Dr. Billington. Okay.
    Chairman Stevens. Just think about it, if this will be 
helpful.
    Would you not like that?
    Senator Cochran. Yes.
    Chairman Stevens. Do you have any problem with that, Mr. 
Chairman?
    Mr. Ehlers. No, that would be fine.
    Chairman Stevens. Thank you. That is just a suggestion.
    Now, any further questions of the Library of Congress, 
gentlemen?
    [No response.]
    Chairman Stevens. Well, we do thank you both. It really is 
a grand asset for our country and it has become even more so 
important, more important in the world. I just wish we had 
another one of those years when we had enough money that we 
could give you another little bit of a boost like we did once. 
I do not see it this year, but we will do our best to get you 
the money you need.
    Dr. Billington. Thank you very much.
    Mr. Mulhollan. Thank you.
    Chairman Stevens. And General Scott, thank you very much 
for being with us.
    General Scott. Thank you, sir.
    Chairman Stevens. We appreciate it.
    The Architect of the Capitol, please.
STATEMENT OF HON. ALAN HANTMAN, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        LEONE REEDER, ACTING CHAIR, NATIONAL FUND FOR THE U.S. BOTANIC 
            GARDEN
        STEPHEN WARD, EXECUTIVE DIRECTOR, NATIONAL FUND FOR THE U.S. 
            BOTANIC GARDEN

    Mr. Hantman. Chairman Stevens, Vice Chairman Ehlers, 
members of the Joint Committee: I would like to submit my 
formal statement for the record----
    Chairman Stevens. First, who is with you, please?
    Mr. Hantman. That is the next line, sir.
    And make some brief opening remarks. I thank you for 
inviting me here to update you on the National Garden project 
and to bring before you our recommended method of recognizing 
supporters of the National Garden.
    I am joined at the table by Ms. Leone Reeder, who is Acting 
Chair of the National Fund for the U.S. Botanic Garden and 
representative on the Fund's board of the Garden Clubs of 
America from all 50 States; and Mr. Stephen Ward, Executive 
Director of the National Fund for the U.S. Botanic Garden. I 
have asked these folks to join me here because, as you are 
aware, this project has been a joint venture among the Joint 
Committee on the Library, the Office of the Architect of the 
Capitol, and the National Fund for the U.S. Botanic Garden. It 
also has a long history that goes back to 1989 when the project 
was first conceived. It has been a major work in progress until 
today.
    Mr. Chairman, we are now at the end of that very long road 
and we are ready to move forward to make the vision for this 
National Garden, conceived by your predecessors and mine, a 
reality. In working with the National Fund over the past 
several years, I have watched them try to meet the challenge of 
their mission to raise the necessary funds to begin this 
project, and also to wrestle with the issue of what they wanted 
to propose as appropriate donor recognition for their 
fundraising efforts.
    I have also witnessed, Mr. Chairman, how the fund overcame 
the sudden tragic death of its executive director last year and 
seen how it became re-energized under the direction of Ms. 
Reeder and Mr. Ward.
    I have also met with members of the JCL staff and discussed 
their concerns with the issue of the nature of donor 
recognition on Capitol Hill. We believe our proposal reaches an 
acceptable and appropriate compromise, one that effectively 
blends together the fund's prior commitments and the desires of 
my office and the Congress to provide for a respectful, 
dignified National Garden of which we can all be proud.
    When we held the symbolic groundbreaking ceremony for this 
project, Mr. Chairman, in October 2001, we had a well-defined 
vision. Today we come before you with a final plan and the 
National Fund's financing in hand, ready to be transferred for 
the construction of a beautiful garden. This National Garden 
will not only be a wonderful oasis on what is now a vacant, 
invaluable piece of Capitol Hill real estate, it will be a 
natural complement to the U.S. Botanic Garden, an outdoor 
living museum of plants.
    In that regard, we are here today to request your approval 
of the donor recognition plan so that we may move forward 
expeditiously, sign a contract with a contractor selected 
through a competitive bidding process, and begin construction 
on this beautiful garden. The fund is here today, Mr. Chairman, 
check in hand.
    At this time Ms. Reeder, Mr. Ward, and I would be happy to 
answer any questions that you might have.
    [The statement follows:]

         Prepared Statement of Honorable Alan M. Hantman, FAIA

    Chairman Stevens, Vice-Chairman Ehlers, and Members of the Joint 
Committee; thank you for inviting me here today to bring before you our 
prepared method of recognizing supporters of the National Garden. I am 
joined at the table by Ms. Leone Reeder, acting Chair of the National 
Fund for the U.S. Botanic Garden (USBG); and Mr. Stephen Ward, 
Executive Director of the National Fund for the U.S. Botanic Garden.
    As you are aware, donor recognition in the National Garden was 
approved by the Joint Committee on the Library by then-Chairman 
Claiborne Pell in 1991. The JCL reaffirmed its position in 1993 under 
then-Chairman Charlie Rose, with the condition that the Joint Committee 
on the Library would approve specific design plans proposed to 
recognize donors. The National Fund for the Botanic Garden then began 
to solicit donations for the National Garden with the understanding 
that those donors would be recognized in an appropriate and respectful 
way.
    We are here before you today to request your approval of our donor 
recognition plan so we may move forward with our efforts to begin 
construction of this beautiful garden.
    Mr. Chairman, this project was competitively bid and the selected 
proposal will expire on March 11, 2004. The contractor has already 
extended its bid twice and will not do so a third time. With your 
approval of the donor recognition plan we are proposing, the money 
raised by the fund will be transferred to my office and procurement for 
construction will be completed.
    As you can see in Attachment A provided with my testimony, 
currently the National Fund has raised $9.3 million for the National 
Garden construction. By securing this level of funding, we will be able 
to build the Base Bid plus Option One. The base bid includes the Rose 
Garden, Butterfly Garden, Lawn Terrace, Hornbeam Court, and a 
simplified and reduced grading and landscape plan with infrastructure 
planning for future options. Option One includes the Garden pathway 
which frames the area for future options and provides attractive 
groupings of trees and shrub plantings.
    The construction of the Base Bid and Option One will create a 
beautiful garden that will be enhanced by the staff of the Botanic 
Garden's creative landscape ability. Because it sits at the base of 
Capitol Hill, we would expect nothing less.
    The National Fund believes that once construction begins, they will 
be able to raise additional funds that would allow for the inclusion of 
other options in the contract. Option Two is the Regional Garden. 
Option Three is the First Ladies Water Garden; and Option Four, the 
Environmental Learning Center--would be the only structure built on the 
site--if funding becomes available.
    We have been moving forward with our preparatory efforts to 
construct the Garden. In August of 2002, a solicitation was issued to 
25 qualified and interested bidders. We solicited competition through 
the use of competitive negotiation procedure of Source Selection. Two 
proposals were received in December 2002, both exceeding available 
funds. Over the next several months, we worked with the Fund and our 
architect and engineering firms to produce a viable action plan. The 
project was simplified over the next few months, and in November 2003, 
we produced a workable proposal. The project is now phased into a Base 
Bid with four options, allowing the fund to raise additional money for 
future options within the time frame it takes to construct the project.
    Based on conversations we have had with Members' offices, we also 
have worked with the National Fund to dramatically scale back its 
original proposal for donor recognition.
    The issue before the JCL today is how do we recognize donors in a 
respectful way, while at the same time, not detracting from the 
garden's beauty and stature?
    We believe we have found an appropriate and acceptable way to do 
so. If you refer to Attachment B, you will see a rendering of a 
freestanding bronze plaque. The plaque measures four feet by six feet 
and will include the names of the Garden's founding donors. The next 
attachment shows a sample listing of the donors. This list is subject 
to revision if additional donations are received during construction of 
the project, however, size of the plaque will not change. Finally, the 
plaque will be located in a discreet location in the Hornbeam Court, as 
seen on the map--Attachment C.
    The second form of recognition that the National Fund solicited was 
in the form of sidewalk pavers that would be located in the Butterfly 
Garden--Attachment D. To date approximately 500 pavers at $1,000 each 
have been sold. The Fund initiated this fundraising effort to include 
many National Garden Clubs of America and individual citizens. In 
addition, many current and former Members of Congress are supporting 
the project through the purchase of these pavers to commemorate the 
Bicentennial of Congress.
    At the heart of this effort are the 235,000 individuals--from 
nearly every state--who have purchased the pavers. Individuals from 
organizations such as the Federated Garden Clubs of Connecticut and 
Michigan, to the Garden Clubs of Georgia and Mississippi, to the Alaska 
State Federation of Garden Clubs; have raised money through flower 
sales and local fundraisers. They have worked very hard for this 
National Garden and it would be a shame for them to go unrecognized.
    We hope the Committee will approve the recognition design plan 
before you today so the project may move forward. We believe the Garden 
will greatly add to visitors' experiences to Capitol Hill by connecting 
people to nature and provide Members of Congress and their staffs with 
a beautiful and peaceful sanctuary which will complement our wonderful 
Botanic Garden Conservatory.
    I would be happy to answer any questions you may have. Thank you.
                                ------                                


                Purchased Pavers for the National Garden

    The National Fund for the USBG sold close to 500 pavers at 
$1,000 a piece. Purchasers were given a certificate, see 
attached, for their paver. Also attached is a list of paver 
purchasers which include current and former Members of 
Congress, 271 individuals and 223 garden clubs from across the 
United States representing 235,000 members.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 ______
                                 
                              The Architect of the Capitol,
                                Washington, DC, September 25, 1991.
The Honorable Claiborne Pell,
Chairman, Joint Committee on the Library, United States Congress, 
        Washington, DC 20510.
    Dear Mr. Chairman: As indicated in my recent letter to you, the 
continued success of the fund-raising effort for the construction of 
the National Garden by the National Fund for the United States Botanic 
Garden (``the Fund'') requires the Fund to be able to offer major 
donors appropriate recognition of their contributions. It is also 
important that the Fund be able to offer such recognition when major 
gifts are being solicited.
    The Executive Committee of the Fund, comprised of the 
representatives who met with me on July 30, have accordingly proposed a 
program of major donor recognition that, in my judgment, requires the 
advance approval of the Joint Committee on the Library. In general, 
recognition would involve the placement of the name of the donor within 
the garden, in a tasteful and dignified manner that would not detract 
from the beauty of the garden display. An instructive example may be 
found in the recognition given to major donors to the Capitol Columns 
site within the National Arboretum. As you may know, this project was 
undertaken by the Friends of the National Arboretum, a nonprofit 
organization operating under an agreement with the Secretary of 
Agriculture. Major donors to this project are recognized by dignified 
inscriptions incised into the marble floor adjacent the columns, which 
as you know are the original columns from the East Front of the 
Capitol. Another major donor is recognized by an inscription on the 
small fountain in the center of the site.
    The Fund proposes that donors of $1 million or more could have 
their names associated with a specific component of the garden, such as 
the teaching pavilion, the fountain, the rose garden or the like. The 
actual design of such recognition would await the design of the 
National Garden itself so that it would be properly integrated into the 
overall plan. (Inasmuch as the total cost of the National Garden is 
estimated to be somewhat more than $4 million the number of names to be 
so recognized would be quite limited.) Donors of amounts of $1,000 and 
above would be recognized in some tasteful aggregated way with 
appropriate distinctions according to the levels of giving. It would be 
our plan to work with the Fund to have this form of recognition 
embodied in some work of art integrated into the design of the garden 
itself. This might perhaps be a wall or some work of sculpture. The 
actual design of the collective recognition treatment will also be 
worked out during the preparation of construction documents for the 
National Garden, which process will begin soon with funds already 
raised by the Fund. Contributions of less than $1,000 would be 
recognized in a suitably designed and bound book located within the 
teaching pavilion.
    In addition, the Fund proposes that donors of $200,000 or more be 
given the opportunity, if they so desire, to host a function in the 
National Garden after its completion. On the presumption that the 
relevant rules for use of the Conservatory would apply, this would 
involve only the advance waiver of the condition of the Joint Committee 
for the use of the facility that requires the host to be a non-profit 
entity with IRS tax exempt status. All conditions that otherwise 
pertain to such Congressionally related events, such as sponsorship by 
a Representative or Senator, would continue to apply.
    I believe these proposals constitute ordinary and necessary 
policies for any professionally organized undertaking to raise private 
funds for a significant project of this nature, and I recommend your 
approval. Every major donor may not require recognition but its 
availability is important to the creditability of the Fund's campaign. 
As stated in my earlier letter to you on this subject, the existing 
National Garden legislation requiring the raising of private funds, in 
my view, reasonably contemplates the use of standard practices 
typically employed in fund-raising campaigns.
    It would be the role of this office to assure that these policies 
are followed in a way that does not detract from the dignity of the 
Congress or the U.S. Botanic Garden or from the high aesthetic 
standards that will apply to the design of the National Garden.
    The approval of this approach by the Joint Committee at this time 
will enable the Fund to pursue its fund-raising activities more 
effectively.
    A similar letter has been sent to the Honorable Charles Rose, Vice 
Chairman, Joint Committee on the Library.
    I would be pleased to provide any further information you might 
desire in this regard.
            Cordially,
                                     George M. White, FAIA,
                                          Architect of the Capitol.
    Approved: Claiborne Pell, Chairman.
    Date: October 21, 1991.
                                 ______
                                 
                              The Architect of the Capitol,
                                    Washington, DC, April 16, 1993.
The Honorable Charlie Rose,
Chairman, Joint Committee on the Library, United States Congress, 
        Washington, DC 20515.
    Dear Charlie: I am pleased to report that planning for the National 
Garden is proceeding well, in cooperation with the National Fund for 
the U.S. Botanic Garden (``the Fund'').
    As you will recall, the Fund sponsored a national competition for 
design approaches to three components of the National Garden, the rose 
garden, water garden and environmental learning center. We are in the 
process of melding the approaches taken by the three winners of that 
competition with the overall master plan approved by your committee in 
1989.
    The Fund has been successful in raising approximately $2 million 
thus far for the National Garden, and it is financing the design work 
now being undertaken by transferring funds to this office as 
contemplated by the applicable authorizing and appropriations 
legislation.
    The success achieved thus far in raising funds is based in 
significant measure on the ability of the Fund to recognize major 
donors in some appropriate way. In 1991 I received approval from the 
Honorable Claiborne Pell, then Chairman of the Joint Committee, for a 
proposal from the Fund as described in the enclosed letter.
    It has come to my attention that my request to you of September 25, 
1991 as then Vice Chairman of the Committee has been misplaced, and 
this letter is intended to renew the request so that the Fund can 
continue with its program with confidence that it has the Joint 
Committee's approval.
    In general, recognition would involve the placement of the name of 
the donor within the garden, in a tasteful and dignified manner that 
would not detract from the beauty of the garden display. An instructive 
example may be found in the recognition given to major donors to the 
Capitol Columns site within the National Arboretum. As you may know, 
this project was undertaken by the Friends of the National Arboretum, a 
nonprofit organization operating under an agreement with the Secretary 
of Agriculture. Major donors to this project are recognized by 
dignified inscriptions incised into the marble floor adjacent the 
columns, which as you know are the original columns from the East Front 
of the Capitol. Another major donor is recognized by an inscription on 
the small fountain in the center of the site.
    The Fund proposes that donors of $1 million or more could have 
their names associated with a specific component of the garden, such as 
the environmental learning center, the water garden, the rose garden or 
the like. The actual design of such recognition would await the design 
of the National Garden itself so that it would be properly integrated 
into the overall plan. (Inasmuch as the total cost of the National 
Garden is estimated to be somewhat more than $5 million the number of 
names to be so recognized would be quite limited.) Donors of amounts of 
$1,000 and above would be recognized in some tasteful aggregated way 
with appropriate distinctions according to the levels of giving. It 
would be our plan to work with the Fund to have this form of 
recognition embodied in some work of art integrated into the design of 
the garden itself. This might perhaps be a wall or some work of 
sculpture. The actual design of the collective recognition treatment 
will also be worked out during the preparation of construction 
documents for the National Garden, which process will begin soon with 
funds already raised by the Fund. Contributions of less than $1,000 
would be recognized in a suitably designed and bound book located 
within the environmental learning center.
    In addition, the Fund proposes that donors of $200,000 or more be 
given the opportunity, if they so desire, to host a function in the 
National Garden after its completion. This would involve only the 
advance waiver of the condition of the Joint Committee for the use of 
the facility that requires the host to be a non-profit entity with IRS 
tax exempt status. All conditions that otherwise pertain to such 
Congressionally related events, such as sponsorship by a Representative 
or Senator, would continue to apply.
    I believe these proposals constitute ordinary and necessary 
policies for any professionally organized undertaking to raise private 
funds for a significant project of this nature, and I recommend your 
approval. Every major donor may not require recognition but its 
availability is important to the creditability of the Fund's campaign. 
In my judgment, the existing National Garden legislation requiring the 
raising of private funds reasonably contemplates the use of standard 
practices typically employed in fund-raising campaigns.
    It would be the role of this office to assure that these policies 
are followed in a way that does not detract from the dignity of the 
Congress or the U.S. Botanic Garden or from the high aesthetic 
standards that will apply to the design of the National Garden.
    The approval of this approach by the Joint Committee at this time 
will enable the Fund to continue to pursue its fund-raising activities 
more effectively.
    I would be pleased to provide any further information you might 
desire in this regard.
            Cordially,
                                     George M. White, FAIA,
                                          Architect of the Capitol.
    Enclosure.

    Approved: With the condition that the Joint Committee on the 
Library be kept informed of the specific design plans proposed to 
recognize those donors contributing $1,000 and more.
    Charlie Rose, Chairman.
    Date: May 11, 1993.
                                 ______
                                 
                     Congress of the United States,
                Joint Committee on the Library of Congress,
                                 Washington, DC, November 22, 1989.
Honorable George M. White,
Architect of the Capitol, SB-15, The Capitol, Washington, DC 20515.
    Dear George: After contacting the full membership of the Joint 
Committee on the Library, I am pleased to inform you that the Committee 
has approved the conceptual design for a National Garden commemorating 
the Bicentennial of Congress.
    The planned National Garden, which will occupy the adjacent tract 
west of the U.S. Botanic Garden Conservatory, will serve as a splendid 
commemoration of the Bicentennial of the Congress and a beautiful 
public garden for those visiting and living in our Nation's Capitol.
    The design having been approved, you are authorized to seek funding 
for the purpose of constructing the National Garden. Pursuant to Public 
Law 100-458, you are directed to accept gifts, including money, plants, 
volunteer time, planning, construction and installation expenses, 
assistance and implements, and garden structures, on behalf of the 
United States Botanic Garden for the National Garden project.
    As Chairman of the Joint Committee on the Library, I would like to 
be kept informed of the progress of this project.
    With every best wish, I am
            Sincerely,
                                            Frank Annunzio,
                                                          Chairman.
                                 ______
                                 

                         TITLE 2--THE CONGRESS

        CHAPTER 30--OPERATION AND MAINTENANCE OF CAPITOL COMPLEX

           SUBCHAPTER VI--BOTANIC GARDEN AND NATIONAL GARDEN

Sec. 2146. National Garden

(a) Establishment; gifts

    The Architect of the Capitol, subject to the direction of the Joint 
Committee on the Library, is authorized to--
          (1) construct a National Garden demonstrating the diversity 
        of plants, including the rose, our national flower, to be 
        located between Maryland and Independence Avenues, S.W., and 
        extending from the Botanic Garden Conservatory to Third 
        Streets, S.W., in the District of Columbia; and
          (2) solicit, receive, accept, and hold gifts, including 
        money, plant material, and other property, on behalf of the 
        Botanic Garden, and to dispose of, utilize, obligate, expend, 
        disburse, and administer such gifts for the benefit of the 
        Botanic Garden, including among other things, the carrying out 
        of any programs, duties, or functions of the Botanic Garden, 
        and for constructing, equipping, and maintaining the National 
        Garden referred to in paragraph (1).

(b) Gifts and bequests of money; investment; appropriations

    (1) Gifts or bequests of money under subsection (a)(2) of this 
section shall, when received by the Architect, be deposited with the 
Treasurer of the United States, who shall credit these deposits as 
offsetting collections to an account entitled ``Botanic Garden, Gifts 
and Donations''. The gifts or bequests described under subsection 
(a)(2) of this section shall be accepted only in the total amount 
provided in appropriations Acts.
    (2) The Secretary of the Treasury shall invest any portion of the 
account designated in paragraph (1) that, as determined by the 
Architect, is not required to meet current expenses. Each investment 
shall be made in an interest-bearing obligation of the United States or 
an obligation guaranteed both as to principal and interest by the 
United States that, as determined by the Architect, has a maturity date 
suitable for the purposes of the account. The Secretary of the Treasury 
shall credit interest earned on the obligations to the account.
    (3) Receipts, obligations, and expenditures of funds under this 
section shall be included in annual estimates submitted by the 
Architect for the operation and maintenance of the Botanic Garden and 
such funds shall be expended by the Architect, without regard to 
section 5 of title 41, for the purposes of this section after approval 
in appropriation Acts. All such sums shall remain available until 
expended, without fiscal year limitation.

(c) Donations of personal services

    (1) In carrying out this section and his duties, the Architect of 
the Capitol may accept personal services, including educationally 
related work assignments for students in nonpay status, if the service 
is to be rendered without compensation.
     (2) No person shall be permitted to donate his or her personal 
services under this section unless such person has first agreed, in 
writing, to waive any and all claims against the United States arising 
out of or in connection with such services, other than a claim under 
the provisions of chapter 81 of title 5.
     (3) No person donating personal services under this section shall 
be considered an employee of the United States for any purpose other 
than for purposes of chapter 81 of title 5.
    (4) In no case shall the acceptance of personal services under this 
section result in the reduction of pay or displacement of any employee 
of the Botanic Garden.

(d) Tax deductions

    Any gift accepted by the Architect of the Capitol under this 
section shall be considered a gift to the United States for purposes of 
income, estate, and gift tax laws of the United States.
                                 source
    (Pub. L. 100-458, title III, Sec. 307E, Oct. 1, 1988, 102 Stat. 
2183; Pub. L. 102-229, title II, Sec. 209(a), Dec. 12, 1991, 105 Stat. 
1716; Pub. L. 104-53, title II, Sec. 201(b), Nov. 19, 1995, 109 Stat. 
529; Pub. L. 105-275, title II, Sec. 201, Oct. 21, 1998, 112 Stat. 
2445.)
                           references in text
    The income, estate, and gift tax laws of the United States, 
referred to in subsec. (d), are classified generally to Title 26, 
Internal Revenue Code.
                              codification
    Section was classified to section 216c of former Title 40, prior to 
the enactment of Title 40, Public Buildings, Property, and Works, by 
Pub. L. 107-217, Sec. 1, Aug. 21, 2002, 116 Stat. 1062.
                               amendments
    1998--Subsec. (b)(2), (3). Pub. L. 105-275 added par. (2) and 
redesignated former par. (2) as (3).
    1995--Subsec. (a)(1). Pub. L. 104-53 substituted ``plants'' for 
``plans''.
    1991--Pub. L. 102-229 amended section generally. Prior to 
amendment, section read as follows: ``The Architect of the Capitol, 
subject to the direction of the Joint Committee on the Library, is 
authorized to--
          ``(1) construct a National Garden demonstrating the diversity 
        of plants, including the rose, our national flower, to be 
        located between Maryland and Independence Avenues, S.W., and 
        extending from the United States Botanic Garden Conservatory to 
        Third Street, S.W., in the District of Columbia; and
          ``(2) accept gifts, including money, plants, volunteer time, 
        planning, construction and installation expenses, assistance 
        and implements, and garden structures, on behalf of the United 
        States Botanic Garden for the purpose of constructing the 
        National Garden described in paragraph (1).''
 funds available for constructing, equipping, and maintaining national 
                                 garden
    Pub. L. 102-392, title II, Sec. 201, Oct. 6, 1992, 106 Stat. 1716, 
as amended by Pub. L. 104-53, title II, Sec. 201(a), Nov. 19, 1995, 109 
Stat. 529; Pub. L. 106-554, Sec. 1(a)(2) (title III, Sec. 312), Dec. 
21, 2000, 114 Stat. 2763, 2763A-120; Pub. L. 107-68, title I, Sec. 135, 
Nov. 12, 2001, 115 Stat. 583, provided that:
    ``(a) Pursuant to section 307E of the Legislative Branch 
Appropriations Act, 1989 (40 U.S.C. 216c) (now 2 U.S.C. 2146), not more 
than $16,500,000 shall be accepted and not more than $16,500,000 of the 
amounts accepted shall be available for obligation by the Architect of 
the Capitol for constructing, equipping, and maintaining the National 
Garden.
    ``(b) The Architect of the Capitol is authorized to solicit, 
receive, accept, and hold amounts under section 307E(a)(2) of the 
Legislative Branch Appropriations Act, 1989 (40 U.S.C. 216c(a)(2)) (now 
2 U.S.C. 2146(a)(2)) in excess of the $16,500,000 authorized under 
subsection (a), but such amounts (and any interest thereon) shall not 
be expended by the Architect without approval in appropriation Acts as 
required under section 307E(b)(3) of such Act (40 U.S.C. 216c(b)(3)) 
(now 2 U.S.C. 2146(b)(3)).''
              renovation of conservatory of botanic garden
    Section 209(b) of Pub. L. 102-229 provided that: ``Pursuant to 
section 307E of the Legislative Branch Appropriations Act, 1989 (2 
U.S.C. 2146), not more than $2,000,000 shall be accepted and not more 
than $2,000,000 of the amounts accepted shall be available for 
obligation by the Architect for preparation of working drawings, 
specifications, and cost estimates for renovation of the Conservatory 
of the Botanic Garden.''

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Chairman Stevens. Pardon us. I had showed to Senator 
Cochran the letter that you sent to me as chairman. I think you 
received one too, Mr. Ehlers. It requested approval of a 
specific form of recognition for donors to the National Garden.
    I have shown that to a couple of members and one objected 
very strenuously to it. That is one of the reasons we have 
gotten around to calling this meeting today. It is my 
understanding that the garden has gone forward now with the 
solicitation of funds for the pavers and for the wall and that 
we actually have, you actually now have received a substantial 
amount of money. Would you tell us where that stands?
    Mr. Hantman. Mr. Chairman, a check for $9,296,000 and 
change is right here; from the fund, ready to be transferred to 
us so that we can sign a contract, hopefully before March 11 of 
this year. The money is in hand for the completion of the base 
bid and the first phase of the project as defined in the 
material that we sent to you.
    The fund also believes that in the next 12 months that they 
could raise additional funds for phases two and three of the 
project as we are under construction, and the contractor who 
has been selected through the competitive bidding process is 
ready to accept those additional dollars within the first 12 
months or so of the construction period.
    Chairman Stevens. The objection was that never before in 
history has there been an identification of a donor in that 
way. There has been recognition in the sense of having a room 
or a building named after a donor, but not of the kind of 
recognition that comes from having a physical presence on a 
wall or having names on the floor. To your knowledge, has this 
been done by the Congress in any other way?
    Mr. Hantman. I do not believe it has been done on Capitol 
Hill, Senator. The issue is, right across the street at the 
American Indian Museum--I was there on Friday. I think two-
thirds of the cost of that building was funded by the Congress, 
the rest through private funding. They have a donor wall right 
at the main entrance for major donors and low walls on the 
upper levels for up to 40,000 donations of $150 each. It is 
right across the street from where the National Garden will be 
built.
    But in terms of Capitol Hill itself, I am not aware 
specifically of donor recognition.
    Ms. Reeder. Could I address that? We have in our files a 
letter to Senator Moynihan in 1992 from the Federal Election 
Commission, where he was getting--when this garden was started, 
the plan was that this would recognize the bicentennial of the 
Congress--so it has been going for a very long time, since 
1992--and that the pavers in particular would be a 
Congressional walk.
    So this paper says that it is all right for a 
Congressperson to give $1,000 out of their campaign funds for a 
paver.
    Chairman Stevens. What appears on the paver then?
    Ms. Reeder. Well, their name, the name of the person on the 
paver.
    So when we started it was to be a Congressional walk. I 
understand that they did not sell that many pavers to 
Congressmen, but there are 60 pavers that were bought by 
Congressmen, including Gerald Ford, the former President.
    They then opened those up to the people of the country, and 
so the National Garden Clubs, which is the largest gardening 
organization in the world, were recruited to help us sell those 
pavers. They have 8,800 garden clubs and the garden clubs in 49 
States responded, representing 235,000 of their members, and 
they did the equivalent of a bake sale, these little clubs. 
They sold----
    Chairman Stevens. May I interrupt you. We have got to go to 
a meeting.
    That is not the point. The point is this establishes a 
tradition of putting donors' names on facilities of the 
Congress and it was objected to. I think before we are through 
here we are going to have to have a motion for a vote, and we 
will circulate the item to the members who are not present and 
then have everyone vote.
    Am I correct that there was no specific authorization of 
Congress for a concept that the pavers or the wall would have 
the names of donors?
    Mr. Hantman. There was specific authorization of Congress 
to have recognition of the donors. The method for that 
recognition was not defined.
    Chairman Stevens. But nothing said it would be a physical 
presence on the walls or on the floors or on anything, other 
than the traditional plaque at the door saying that the Garden 
Clubs of America have donated this?
    Mr. Hantman. I believe there were words that did address 
specific recognition in different parts of the garden. In fact, 
it started out that a $1 million donor could get a name in a 
specific portion of the garden.
    Chairman Stevens. Congress gave approval to that?
    Mr. Hantman. That is correct, sir.
    Chairman Stevens. Who gave that approval?
    Senator Cochran. It is dated April 16, 1993, in one 
document where George White writes a letter confirming the 
understanding with Charlie Rose, who was the chairman at that 
time of the Joint Committee, and they talk about ``an 
appropriate way of recognizing donors of $1 million or more, to 
have their names associated with a specific component of the 
garden, such as the environmental learning center, the water 
garden, the rose garden, or the like.''
    Then it goes on to talk about ``Donors of amounts of $1,000 
and above would be recognized in some tasteful aggregated way, 
with appropriate distinctions according to the levels of 
giving.''
    This was approved and signed by Charlie Rose May 11, 1993, 
as chairman of the committee, and it was approved with the 
condition that the Joint Committee on the Library be kept 
informed of the specific design plans proposed to recognize 
those donors contributing $1,000 or more.
    Chairman Stevens. How was that done?
    Mr. Hantman. In terms of----
    Chairman Stevens. Was there further consultation with the 
committee on the plans for this type of recognition of donors?
    Mr. Hantman. There was a lot of discussion, Mr. Chairman, 
over time about how best to raise funds. The fund was working 
on that very strongly, and the issue of how they wanted to 
recognize donors was something that they had dealt with with 
great difficulty.
    Their projections for their fundraising, unfortunately, 
were overly optimistic. So as they tried to raise the funding--
and in fact we raised the cap level potentially to $16.5 
million that would allow the fund to raise those dollars--that 
unfortunately was optimistic, and the unexpected death of the 
executive director last year caused a major disruption in the 
fund's activities.
    But under the direction of Ms. Reeder and Mr. Ward, the 
fund was re-energized. They reviewed what was discussed with 
donors over the years and the commitments that were made and 
then came to us with a donor recognition plan. We recognize the 
sensitivities of the Congress to the issue of the donor 
recognition on Capitol Hill and I was working with the fund, 
members of JCL staff and my staff to craft what I believe is an 
appropriate compromise that balances the fund's commitments and 
Congress' requirements.
    The proposal we bring to you today, Mr. Chairman, is much 
more modest than the fund originally proposed. When you talked 
about walls, that in fact was what was being proposed 
originally. It was a donor wall with names across it maybe 30 
feet long. What we are coming to you today for, sir, is one 4 
by 6 foot plaque, freestanding in bronze, and the pavers in the 
one section.
    Chairman Stevens. Mr. Ehlers, do you have any comment--oh, 
pardon me.
    Senator Cochran. May I ask a question?
    Chairman Stevens. Yes.
    Senator Cochran. Am I not correct too that at the Madison 
Library we had a long discussion one time about recognition of 
specific individuals with engraved names in the walls there? 
Was that not approved? Did that not go forward? I do not know 
if Dr. Billington remembers that.
    Ms. Mies. That was the 106th Congress.
    Senator Cochran. But we did approve that. Oh, we did not 
approve it?
    Ms. Mies. You did not approve that. There was discussion of 
that.
    Chairman Stevens. No, I do not think that was done.
    Mr. Hantman. There were discussions to that effect.
    Chairman Stevens. Mr. Ehlers, do you have any comment, sir? 
Are you done, Thad?
    Senator Cochran. Yes.
    Mr. Ehlers. I would verify that, because I was present for 
that discussion and my memory is it was rejected and the 
Library was instructed to find some alternative.
    Mr. Chairman, my comments first of all are more general. I 
think we have a problem that goes beyond this and I think we 
need to institute regular reporting requirements from the 
Architect of the Capitol. This is now the third time that I 
have basically been informed of a project when it has already 
gone out for bid. The plans are drawn, it has gone out for bid, 
and we are asked to approve it.
    I would like to request that we get regular reports from 
the Architect of the Capitol on every project that it is 
undergoing and be kept informed. Specifically, the letter that 
Senator Cochran just read, the bottom, it is very clear, 
``approved with the condition that the Joint Committee on the 
Library be kept informed of the specific design plans proposed 
to recognize the donors contributing $1,000 or more.'' This is 
my sixth year on this committee. I have never seen, received 
any notification or recognition of that at all.
    I think we have to have in place some good reporting 
requirements. We could have caught the problem long ago 
because, as Senator Cochran pointed out, 6 years ago we talked 
about this issue and rejected it for the Library of Congress. 
Had this come before us before, we could have dealt with it 
according to that policy.
    Now we are in the completely embarrassing position of 
donors having been promised something by people who were not 
aware of the decision, prior decisions, and the rules we have 
established. And we have been put in a real box because people 
have contributed money on the basis that they would receive 
this recognition, and now we are saying: Oh, thanks for the 
money, but we do not want to recognize you. We should not be 
put in these boxes by not being kept informed of things.
    Also, I do not know to what extent we have detailed records 
of all this. The Architect's Office of course does, but this is 
again an internal committee concern. I do not know to what 
extent we have established procedures for keeping records 
within the committee. It jumps back and forth between the House 
and the Senate and I am not sure there is any permanent record 
kept of everything that happens within this committee and 
decisions made.
    So I just wanted to make those comments in general. I am 
also concerned, although perhaps the permission was given to go 
out and raise money, it appears that this letter implies it 
was, but--you were not formed by the Congress per se, were you? 
Congress did not ask you to perform this function?
    Ms. Reeder. George White as I understand went to Akin Gump 
when there were actually a group of Congressional wives who 
felt like we needed a National Garden that would spotlight the 
rose, which is the national flower, and it came into being 
shortly after that. So these Congressional wives got together. 
George White approached Akin Gump to form a separate not-for-
profit committee who could raise the funds to build the garden 
and then hand them over to the Architect.
    Mr. Ward. All private sector funds.
    Mr. Hantman. A 501(c)(3) was set up and submitted to the 
committee for approval.
    Mr. Ehlers. When was that approved?
    Ms. Reeder. That was in 1992.
    Mr. Ehlers. So it was submitted to the committee?
    Ms. Reeder. Or before.
    Mr. Hantman. The agreement was submitted to the committee.
    Mr. Ehlers. So these are private funds that have then been 
turned over. Were the subject of fundraising and the control of 
the funds under the Architect's control? Was this audited at 
any point?
    Ms. Reeder. The fund has had its own legal counsel and its 
own treasurer and has had its own independent audit every year, 
and the moneys have been held in escrow at Chevy Chase Bank and 
the only moneys that have been expended have been in connection 
with either fundraising or blueprints, architectural designs.
    Mr. Ward. We have turned over $1\1/2\ million for design 
services.
    Mr. Ehlers. Understand, I am not casting any aspersions on 
you.
    Chairman Stevens. None of us are, really.
    Mr. Ehlers. But things got out of hand and now we have a 
real problem. For example, Scott's, which is famous for 
beautiful lawns and many other things, contributed $1 million 
and they were expecting good recognition. I think they deserve 
it. But we are flat up against the decisions we have made 
before not to do this sort of thing.
    Mr. Ward. Could I make----
    Chairman Stevens. Could we just go through this. We are 
late for a leadership meeting.
    Do you have any comments?
    Mr. Ney. Mr. Chairman, I will be real quick. I would like 
to submit this for the record from Congressman Kingston. It is 
a question to be answered later, if I could.
    Chairman Stevens. Yes. Yes, sir.
    Mr. Ney. And I promise I will be extremely brief.
    I do not like the position we are in. I do not think names 
should be assigned to things. I do not think the Visitors 
Center should be assigned a name. We had this issue that came 
up that somebody wanted a certain business name and I happened 
to tell them: Fine, there are a couple of unions; I would like 
to have that union wing. They said: Well, we cannot do that. 
Well, if you can have a business wing you can have a union 
wing.
    I do not like it. I do not like to do names. But, having 
said that, I think personally, and I will shut up here, but 
this was signed by the chair. Members, that were here at the 
time, told me that they knew this was going on. Even though I 
do not think we should do this, I do not like doing this, I do 
not think we should do it down the road, but I will still 
support doing what people across the country were told: Give 
your money and this is what happens.
    So we are in a mess. I did not know how I was going to--I 
said I did not know how I was going to go. I will support it. I 
just do not like it, but I think we are stuck with signatures 
from the past. That is what I think.
    Chairman Stevens. I am constrained to tell you about the 
first trial I conducted in Nome years ago as a U.S. attorney. 
It was a case involving a charge of rape and the young man who 
was accused of that was the basketball star for the town. The 
jury came in with a verdict that said: Not guilty, but he 
better not do it again.
    Mr. Larson.
    Mr. Larson. Mr. Chairman, it is very hard to follow that. 
But I want to associate myself with the remarks of our 
distinguished chairman, Mr. Ney, and say that again I agree 
entirely that this is a public place and a public facility. I 
do not feel that there is a place for corporate, labor, or 
other names, in spite of the great philanthropic entities that 
exist throughout this country and around the globe who would be 
eager to continue this splendid place that in fact indeed 
belongs to the people.
    Yet, as the chairman eloquently stated and as Mr. Ney has 
said, we are in a real bind here, and I reluctantly feel that 
there probably is not any other way out, and commend you for 
working out a compromise.
    Chairman Stevens. Do you wish to comment, sir?
    Mr. Ward. I just wanted to be sure that there is some 
clarity for what the fund is asking for. We are just asking for 
the standard donor recognition plaque, not a wall, and about 
500 of these pavers. We are not asking for anything beyond 
that.
    Mr. Ney. Mr. Chairman, just a quick one if I could. Like my 
grandma always said, quit while you are ahead. That is my 
personal opinion.
    Chairman Stevens. We have this question for the record from 
Mr. Kingston: ``I understand from Deborah Pryce that the Ohio-
based company Scott Fertilizer donated substantially to the 
National Garden project. They were told they would be 
recognized for this contribution. While I realize these 
assurances were made under a different administration, Scott 
Fertilizer donated substantial resources to the project. I 
would like to know what can be done to recognize their 
efforts.''
    We would like to have you answer that in writing if you 
would. That is a question that has been asked for the record by 
one member.
    [The information follows:]

    The Joint Committee on the Library recently approved the 
recognition plan proposed by the AOC and the National Fund 
where the names of major donors will be engraved on a free-
standing, 4 foot <greek-e> 6 foot bronze panel located in the 
Hornbeam Court, adjoining the Rose Garden. The other major 
donors have agreed that, ``The Scotts Company--The Margaret 
Hagedorn Rose Garden'' will appear on the panel as the first 
listing.
    Early this year, Ms. Leone Reeder, Acting Chair for the 
National Fund for the Botanic Garden, traveled to Ohio to meet 
with Mr. James Hagedorn, Chairman of the Board and Chief 
Executive Officer for The Scotts Company. They agreed on the 
plaque as an appropriate form of recognition for Scotts 
efforts. In addition, the National Fund will be working toward 
developing a Margaret Hagedorn rose that will be grown in the 
Rose Garden.

    Chairman Stevens. So it is my understanding that the 
Senator from Mississippi would make a motion. It would be my 
suggestion as chair that we entertain a motion to approve the 
request for the use of these funds and to proceed with this 
project and leave the subject of what the standard should be 
for the future to be determined, with the understanding that 
there will be no further fundraising efforts until we do 
establish that standard.
    Are you prepared to make a motion?
    Senator Cochran. I am prepared to make that motion. I think 
the commitments that have been made were made in good faith by 
the Architect's Office based in reliance on the April 16, 1993, 
letter. I do not know if there may be some evidence of 
communications that are not in the file here, but I think the 
thing to do is to support the Architect and to live up to the 
commitments that have already been made.
    Chairman Stevens. Mr. Ehlers, is it agreeable to you that 
we submit that to the membership by written memorandum and ask 
them to vote, and we will report the results of that vote to 
the Architect and we will ask that that be--that members 
respond to us before this time next week, so we will have you 
an answer by next week as to proceeding. Mr. Ehlers?
    Mr. Ehlers. That procedure is certainly acceptable. I just 
want to clarify. You did not specifically mention the 
recognition issue in your motion, did you?
    Senator Cochran. Yes, I do intend to include that, the 
recognition of major donors in an appropriate way, and I think 
the way that has been suggested is appropriate and we should 
confirm that.
    Mr. Ehlers. I will support the procedure dealing with that. 
Let me also add, Mr. Chairman, as part of the discussion, there 
are other ways or additional ways to recognize these, because 
there were three major donors. Scott Fertilizer and two others 
donated $1 million each. I think it would be entirely 
appropriate for the garden to continue that recognition--for 
example, one of them, I am not sure which, donated the rose 
garden; that the directory or the guide that is handed out to 
every visitor specifically mention the company that donated the 
rose garden. That sort of recognition does not violate our rule 
against putting things, mounting them on walls.
    Chairman Stevens. It is my understanding that Senator 
Cochran's request is to approve the two procedures that have 
been requested here today, the large bronze plate and the 
pavers, and we will address the question of recognition when 
you submit to us what you intend to do for them. Is that 
acceptable? You have three major donors that deserve 
recognition.
    Mr. Hantman. Their names are all appearing on that plaque, 
sir.
    Chairman Stevens. Their names are already on the plaque?
    Mr. Hantman. They will be on the plaque, yes. That is the 
proposal, all three of their names.
    Chairman Stevens. Then that is taken care of. That will be 
explained to all the members. So that we will submit that to 
the members.
    Mr. Hantman. Mr. Chairman, one clarification, please.
    Chairman Stevens. Yes?
    Mr. Hantman. Would that allow the fund over the next 12 
months to hopefully raise funds for option two and option three 
and just add names to that same plaque if they get major donors 
which they have on the hook right now?
    Chairman Stevens. We will--will the Senator modify his 
amendment to include the phase two concept and phase three for 
further donors to be recognized in a similar way?
    Senator Cochran. I agree with the modification that is 
suggested.
    Chairman Stevens. Has staff got that?
    Ms. Mies. Yes.
    Chairman Stevens. Anything further to come before the 
committee? Mr. Ehlers?
    Mr. Ehlers. Mr. Chairman, if I may, I would like to offer a 
motion and if you wish to study it further we can defer a 
decision until later. I would like to offer the motion that we 
ask the Architect of the Capitol to submit an annual report 
giving the status of all projects and a monthly report on those 
that are actively ongoing.
    Chairman Stevens. May I suggest that we ask the legislative 
appropriations committees to put that in law? I think that 
would be acceptable.
    Mr. Hantman. Absolutely.
    Chairman Stevens. So we know what to expect, and let those 
committees determine the timing for them, because that would be 
something--they meet annually for the legislative review of the 
Architect and I think that we should let them do it.
    Mr. Ehlers. I only request that that report come to this 
committee as well.
    Chairman Stevens. Yes, it will come. We will ask the 
legislative committee to say the report comes to this committee 
and to the legislative subcommittees once a year. It would be 
the same report, Mr. Architect.
    Anything further to come before the committee?
    [No response.]
    Chairman Stevens. I am sorry to be this abrupt.
    Thank you very much.
    [Whereupon, at 5:21 p.m., Wednesday, March 3, the meeting 
was recessed, to reconvene subject to the call of the Chair.]


</pre></body></html>
